<html>
<title> - PPACA ENROLLMENT AND THE INSURANCE INDUSTRY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                     PPACA ENROLLMENT AND THE INSURANCE 
                                INDUSTRY

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2014

                               __________

                           Serial No. 113-144
                           

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                                              
                               _____________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
91-184                        WASHINGTON : 2015                      
                  
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2740574867445254534f424b570944484a09">[email&#160;protected]</a>  
                 
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
PETE OLSON, Texas                    KATHY CASTOR, Florida
CORY GARDNER, Colorado               PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
BILL JOHNSON, Ohio                   JOHN A. YARMUTH, Kentucky
BILLY LONG, Missouri                 GENE GREEN, Texas
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the state 
  of Colorado, opening statement.................................     4
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Henry A. Waxman, a Representative in Congress from the state 
  of California, opening statement...............................     8
    Prepared statement...........................................
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................    80

                               Witnesses

Mark Pratt, Senior Vice President of State Affairs, Americas 
  Health Insurance Plans.........................................    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................   110
Frank Coyne, Vice President of Operations, Chief Transformation 
  Officer, Blue Cross Blue Shield Association....................    23
    Prepared statement...........................................    24
    Answers to submitted questions...............................   120
Paul Wingle, Executive Director of Individual Business and Public 
  Exchange Operations and Strategy, Aetna........................    28
    Prepared statement...........................................    29
    Answers to submitted questions...............................   129
Brian Evanko, President, Individual Segment, Cigna...............    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................   139
J. Darren Rodgers, Senior Vice President and Chief Marketing 
  Officer, Health Care Service Corporation.......................    36
    Prepared statement...........................................    38
    Answers to submitted questions...............................   153
Dennis Matheis, President of Central Region and Exchange 
  Strategy, Wellpoint, Inc.......................................    41
    Prepared statement...........................................    43
    Answers to submitted questions...............................   163

                           Submitted Material

Article entitled, ``Changes in Mortality After Massachusetts 
  Health Care Reform: A Quasi-experimental Study,'' American 
  College of Physicians, May 6, 2014. submitted by Ms. DeGette...    81
Majority memorandum..............................................    92
Minority memorandum..............................................    95

 
              PPACA ENROLLMENT AND THE INSURANCE INDUSTRY

                              ----------                              


                         WEDNESDAY, MAY 7, 2014

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
room 2123, Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Present: Representatives Murphy, Burgess, Blackburn, Olson, 
Gardner, Griffith, Johnson, Long, Ellmers, Barton, Upton (ex 
officio), DeGette, Braley, Lujan, Schakowsky, Castor, Tonko, 
Yarmuth, Green, Dingell, and Waxman (ex officio).
    Staff Present: Gary Andres, Staff Director; Karen 
Christian, Chief Counsel, Oversight; Noelle Clemente, Press 
Secretary; Paul Edattel, Professional Staff Member, Health; 
Brad Grantz, Policy Coordinator, O&I; Brittany Havens, 
Legislative Clerk; Sean Hayes, Deputy Chief Counsel, O&I; Alexa 
Marrero, Deputy Staff Director; Christopher Pope, Fellow, 
Health; Krista Rosenthall, Counsel to Chairman Emeritus; Tom 
Wilbur, Digital Media Advisor; Jessica Wilkerson, Legislative 
Clerk; Jean Woodrow, Director, Information Technology; Phil 
Barnett, Minority Staff Director; Stacia Cardille, Minority 
Chief Counsel; Brian Cohen, Minority Staff Director, Oversight 
& Investigations, Senior Policy Advisor; Hannah Green, Minority 
Staff Assistant; Karen Nelson, Minority Deputy Committee Staff 
Director For Health; Stephen Salsbury, Minority Investigator; 
and Matt Siegler, Minority Counsel.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning. I now convene this hearing to 
examine the implementation of the Affordable Care Act and 
enrollment of the State and Federal exchanges here in the 
Oversight and Investigations Committee for the Committee on 
Energy and Commerce.
    This subcommittee has a long history of trying to get 
straight answers from the administration on the status of the 
Affordable Care Act. Two weeks before the launch of 
HealthCare.Gov, the administration official responsible for the 
implementation of the ACA exchanges told this committee that 
the Web site would be ready, consumers would be able to go 
online, shop for a select plan and then enroll in coverage.
    When the Federal exchange opened on October 1, consumers 
instead found a crashing Web site. The administration's excuse 
for why the Web site didn't work: Volume. Through this 
committee's investigation, we learned that the administration 
spent over $.5 billion on a Web site that they had been warned 
for several months would not be ready and would not work. Facts 
that administration officials did not disclose when questioned 
by this committee during oversight hearings through 2013.
    Just after the failed launch, we asked the administration 
on October 8 to provide enrollment data for the first week of 
the HealthCare.Gov debacle. The administration ignored us. Why? 
It wasn't because the data didn't exist; it was because the 
news wasn't good. When Secretary Sebelius testified before the 
full Energy and Commerce Committee on October 30 of last year, 
was asked about enrollment, she stated that she could not 
provide any data because the administration did not ``have any 
reliable data around enrollment.''
    The very next day, it was reported that there were only six 
successful enrollments on October 1. We tried again during a 
hearing in January before this subcommittee when we asked the 
head of the office running the exchanges if the administration 
collected any data on who has paid their health coverage. This 
administration official told us that they did not collect this 
information ``but we will be,'' as soon as it was finished 
building the Web site.
    While the administration refused to provide straightforward 
answers to our questions on enrollment, it continues to tout 
enrollment figures that included individuals who had merely 
selected a plan online. When pressed by reporters for 
information on the number of enrollees who had paid their 
premiums, a White House spokesman said that questions about 
payment ``can best be directed to those private insurance 
companies that are collecting those payments.''
    After months of an administration that refused to be 
transparent about enrollment, that's what we did; we did 
exactly what the administration suggested we do. On March 13, 
we sent a request to each insurance company in the Federal 
marketplace and asked them to submit basic information: Who 
selected a plan and who paid for it?
    The data submitted by the insurers paints an uneven picture 
about the status of enrollment and payment through April 15. As 
of that date, just two-thirds of enrollees through the 
Federally-facilitated marketplace paid their first month 
premium. Some States are doing better than others.
    My home State of Pennsylvania, for example, has an 81 
percent payment rate. Texas, on the other hand, is much lower 
at 42 percent. We recognize that many individuals still have 
time to pay their first month's premium, which is why we have 
asked the insurers to update this information on May 20. As 
with any criticism or questions of the Affordable Care Act, the 
administration predictably protested and attempted to 
misrepresent the purpose of our inquiry.
    Let's be clear about why we had to engage in this exercise 
in the first place. The administration would not be transparent 
about enrollment and provide the underlying data. For the 
witnesses today, we ask you to be patient with our questions 
about enrollment and implementation. After months of promises 
about the status of HealthCare.Gov from HHS officials, we have 
learned to be skeptical about blanket statements that 
everything is well.
    One purpose of today's hearing is to examine enrollment 
because it is a key factor in measuring whether these exchanges 
are viable. We have a number of other questions for the 
witnesses today about the status of implementation. The ACA is 
more than a payment rate. We need to know if Americans can 
expect the premium reductions they were promised, and we need 
to know if they can keep the plan they liked. We need to know 
if they can keep their doctor.
    We cannot understand the status of the law in its 
implementation without hearing from you, the insurance 
companies, whose plans make up these exchanges. Under the 
President's health care law, these companies will receive 
taxpayer dollars in the form of premium subsidies and cost 
sharing. We expect the witnesses today to provide the committee 
with facts and information about the first year of coverage 
under the Affordable Care Act.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    This subcommittee has had a long history trying to get 
straight answers from this Administration on the status of the 
Affordable Care Act. Two weeks before the launch of 
HealthCare.gov, the administration official responsible for the 
implementation of the ACA exchanges told this Committee that 
the Web site would be ready. Consumers would be able to go 
online, shop for and select a plan, and enroll in coverage.
    When the federal exchange opened on October 1, consumers 
instead found a crashing Web site. The administration's excuse 
for why the Web site didn't work?
    Volume.
    Through this Committee's investigation, we learned that the 
administration spent over half a billion dollars on a Web site 
that they had been warned for months would not be ready and 
would not work--facts that administration officials did not 
disclose when questioned by this Committee during oversight 
hearings throughout 2013.
    Just after the failed launch, we asked the administration 
on October 8 to provide enrollment data for the first week of 
the HealthCare.gov debacle. The administration ignored us. Why? 
It wasn't because the data didn't exist. It was because the 
news wasn't good. When Secretary Sebelius testified before the 
full Energy and Commerce Committee on October 30 and was asked 
about enrollment, she stated that could not provide any data 
because the administration did not ``have any reliable data 
around enrollment.''
    The very next day it was reported that there were only six 
successful enrollments on October 1. We tried again during a 
hearing in January before this Subcommittee, when we asked the 
head of the office running the exchanges if the administration 
collected any data on who has paid for their health coverage. 
This administration official told us that they did not collect 
this information ``but we will be'' as soon as it finished 
building the Web site.
    While the administration refused to provide straightforward 
answers to our questions on enrollment, it continued to tout 
enrollment figures that included individuals who had merely 
selected a plan online. When pressed by reporters for 
information on the number of enrollees who had paid their 
premiums, a White House spokesman said that questions about 
payment ``can best be directed to those private insurance 
companies that are collecting those payments.''
    After months of an administration that refused to be 
transparent about enrollment, that's what we did. On March 13, 
we sent a request to each insurance company in the federal 
marketplace and asked them to submit basic information: who 
selected a plan, and who paid for it. The data submitted by the 
insurers paints an uneven picture about the status of 
enrollment and payment through April 15. As of that date, just 
two-thirds of enrollees through the federally-facilitated 
marketplace paid their first month premium. Some states are 
doing better than others. My home state of Pennsylvania has an 
81 percent payment rate. Texas, on the other hand, is much 
lower, at 42 percent. We recognize that many individuals still 
have time to pay their first month's premium, which is why we 
have asked the insurers to update this information on May 20.
    As with any criticism or questions of the Affordable Care 
Act, the administration predictably howled in protest and 
attempted to misrepresent the purpose of our inquiry. Let's be 
clear about why we had to engage in this exercise in the first 
place: the administration would not be transparent about 
enrollment and provide the underlying data. For the witnesses 
today, we ask you to be patient with our questions about 
enrollment and implementation. After months of promises about 
the status of HealthCare.gov from HHS officials, we have 
learned to be skeptical about blanket statements that ``all is 
well.''
    One purpose of today's hearing is to examine enrollment, 
because it is a key factor in measuring whether these exchanges 
are viable. We have a number of other questions for the 
witnesses today about the status of implementation. The ACA is 
more than a payment rate. We need to know if Americans can 
expect the premium reductions they were promised. We need to 
know if they can keep the plan they liked. We need to know if 
they can keep their doctor. We cannot understand the status of 
the law and its implementation without hearing from the 
insurance companies whose plans make up these exchanges. Under 
the President's health care law, these companies will receive 
taxpayer dollars in the form of premium subsidies and cost-
sharing. We expect the witnesses today to provide the Committee 
with facts and information about the first year of coverage 
under the Affordable Care Act.

    Mr. Murphy. Thank you to the witnesses for being here 
today, and I now would like to recognize the ranking member, 
Ms. DeGette, for 5 minutes.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, Mr. Chairman. I just want to take a 
few minutes, since the chairman has walked through the greatest 
hits of the problems they have had with the ACA, of where we 
stand now and where we stand after the first enrollment period 
has just closed. So as we continue to get information about how 
the exchanges in the Affordable Care Act and the enrollment are 
performing, let's review what we already know.
    The first thing is, despite the disastrous beginning of the 
Federal exchange, good news: The Web site was fixed. More than 
8 million people signed up for insurance through the exchanges 
created through the Affordable Care Act which is more than 1 
million more than were originally projected before the 
disastrous unveiling.
    Now, of those 8 million people, 3 million of them waited 
until the last month of enrollment, and so their premiums are 
not due until April 30, or in some cases, later than April 30. 
Even so, my colleagues, in their quest for knowledge on the 
other side of the aisle, sent out a questionnaire to insurers 
that manipulated the payment deadlines to skew the 
understanding of how new insurance coverage is performing.
    How does that happen? Because they cut off the responses 
April 15, at least 2 weeks before many of the premiums of these 
3 million people were even due for payment. What this does is 
it skews the amount of people who were enrolled. Then, of 
course, they issued a press release posthaste.
    Now, for years, my friends on the other side of the aisle 
have made a series of claims that really are unsubstantiated. 
First, they claimed that the bill contained death panels, then 
they claimed that the bill would eliminate private insurance 
within 3 years, then they claimed that the law would destroy 
millions of jobs. When the Web site was broken, they insisted 
the law would never meet enrollment goals.
    Now, Mr. Chairman, today we finally have a chance to see in 
a snapshot what's happening with the Affordable Care Act, and 
the facts reveal that every single one of those claims were 
wrong. As of today, as I said, more than 8 million people 
enrolled in private plans through Federal and State 
marketplaces. Millions more have enrolled through Medicaid and 
in off-exchange plans.
    Gallup just released a new poll finding that in the last 6 
months, the percentage of adults without insurance has dropped 
about 20 percent, and what that means is there are more than 11 
million Americans with insurance today than there were 6 months 
ago. Premiums are below the levels predicted by the 
Congressional Budget Office, and the agency has once again 
reiterated that the Affordable Care Act has slowed inflation 
and saved billions of dollars and will even reduce deficits. So 
by any rational, reasonable measure, we can call this law 
success, and that success will make a real difference in 
people's lives. That's what's important here.
    Yesterday, researchers from the Harvard School of Public 
Health released a comprehensive study on the impacts of health 
insurance coverage. They were looking at mortality rates before 
and after the passage of RomneyCare, the landmark Massachusetts 
health insurance expansion that served as a model for the 
Affordable Care Act. They found that the mortality rate in 
Massachusetts fell by about 3 percent in the 4 years after 
passage of the State's health insurance law.
    Mr. Chairman, I would like to ask unanimous consent to put 
a copy of that study into the record.
    Mr. Murphy. Without objection.
    Ms. DeGette. Thank you.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. So if we can achieve that same level of 
success nationwide with the Affordable Care Act, and there's no 
reason why we shouldn't be able to do so, that could result in 
17,000 fewer deaths per year. That, Mr. Chairman, in a 
nutshell, is what the Affordable Care Act means for Americans.
    Now, what I wish we could do in this subcommittee, and I've 
said this both publicly and privately many, many times, is sit 
down with the ACA, figure out what the flaws are and figure out 
how we can work in a bipartisan way to fix it. And that's what 
I think we should do. Instead, what we get is this misleading 
analysis last week which said that only 67 percent of enrollees 
had paid for the coverage they enrolled in on the exchanges.
    And my chairman, Mr. Upton, said the administration's 
recent declarations of success may be unfounded. But again, I 
will say, the report was misleading because almost half of the 
enrollees in the health care exchanges, 40 percent of them, did 
not even have to make their initial premium payment until April 
31. I'm glad we've got the insurers here today to clear up this 
record. I'm glad we have everybody here to see exactly what 
we're talking about here.
    So my suggestion is, let's look at the successes, let's 
look where we need to make improvements, and let's work 
together to do just that. Thank you.
    Mr. Murphy. Gentlelady's time has expired.
    Now recognize the chairman of the full committee, Mr. Upton 
for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. With a friendly pat on the back, I'll just say 
April 31 has yet to come. ``30 days has September, April, June 
and November.''
    Thank you, Mr. Chairman. I thank the witnesses for being 
here today as well, for sure. At this subcommittee, our 
investigations are about getting the facts. A quest for 
transparency, the self-proclaimed most transparent 
administration in history has repeatedly dodged our simple 
questions about the health care law and refused even a 
semblance of transparency about how its signature legislative 
achievement is or is not working.
    We wanted the basic data from the administration on 
enrollment 1 week after the launch of HealthCare.Gov, and the 
administration has rejected our request for more information 
each and every time. Members of the press have asked. The 
administration suggested the only way to get the facts was 
directly asking the insurance providers themselves. So we took 
their advice and we did just that, but the administration cried 
foul again.
    We began asking about HealthCare.Gov months before October 
1 of last year. Repeatedly, we are told things were on track 
and working the way it was supposed to. We learned that this 
was not the case and the administration officials did 
everything in their power, it seems, to hide the chaos behind 
the scenes.
    The American public does deserve better. They deserve 
better than an administration that promised them $2,500 in 
savings on health care premiums only to see the cost rise 
sharply for many. They deserve better than an administration 
that repeated promises officials knew that would be impossible 
to keep, promises that Americans could keep their doctors and 
keep their health care plans, also.
    Like it or not, millions of Americans have found themselves 
with the unwelcome reality of cancellations and lost access to 
their trusted doctor. And one Democratic colleague from 
Massachusetts said just 2 weeks ago, the worst is yet to come.
    Today we are going to hear firsthand from insurance 
providers about how implementation is working from their 
perspective. While the administration has declared this 
conversation over, the fact is that serious questions remain 
unanswered, and it is our responsibility to continue seeking 
the facts.
    How many people have completed the enrollment process? Are 
the risks presented by these pools sustainable? How much more 
will premiums rise this next year? Is the back end of the Web 
site on track to be working by the next enrollment period? Are 
there any other delays or changes ahead that will disrupt the 
ability of families and businesses to plan for their health 
care coverage and needs? Will more health care plans be 
canceled in the coming years?
    So what's wrong with seeking that information? Nothing that 
I know of. We released basic data points on enrollment as of 
April 15, and we'll do so again on the data that we collect 
through May 20. The facts are the facts, and while the 
administration and its allies furiously try to muddy reality, 
the public deserves transparency.
    And while the administration toasts to the law's success 
with its Hollywood allies, declaring this conversation over, we 
will continue our pursuit for facts for the American people so 
that we can finally have a full, accurate picture of this 
health care law, and I yield the balance of my time to Dr. 
Burgess.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    At this subcommittee, our investigations are about getting 
the facts--a quest for transparency. The self-proclaimed ``most 
transparent administration in history'' has repeatedly dodged 
our simple questions about the health care law and refused even 
a semblance of transparency about how its signature legislative 
achievement is--or is not--working.
    We began asking for basic data from the administration on 
enrollment one week after the launch of HealthCare.gov, and the 
administration has rejected our requests for more information 
every time. Members of the press have asked, and the 
administration suggested the only way to get the facts was 
directly asking the insurance providers themselves. So, we took 
their advice and did just that, but the administration cried 
foul.
    We began asking about HealthCare.gov months before October 
1. Repeatedly we were told things were ``on track'' and 
``working the way it was supposed to.'' We learned that this 
was not the case, and administration officials did everything 
in their power to hide the chaos behind the scenes.
    The American public deserves better. They deserve better 
than an administration that promised them $2,500 in savings on 
their health care premiums, only to see the costs rise sharply 
for many. They deserve better than an administration that 
repeated promises officials knew would be impossible to keep--
promises that Americans could keep their doctor and keep their 
health care plans. Like it or not, millions of Americans have 
found themselves with the unwelcome reality of cancellations 
and lost access to their trusted doctors.
    Today we will hear first hand from the insurance providers 
about how implementation is working from their perspective. 
While the administration has declared this conversation over, 
the fact is that serious questions remain unanswered. And it is 
our responsibility to continue seeking the facts. How many 
people have completed the enrollment process? Are the risks 
presented by these pools sustainable? How much more will 
premiums rise next year? Is the backend of the Web site on 
track to be working by the next enrollment period? Are there 
any other delays or changes ahead that will disrupt the ability 
of families and businesses to plan for their health care 
coverage and needs? Will more health care plans be cancelled in 
the coming years?
    What is wrong with seeking this information? Nothing. We 
released basic data points on enrollment as of April 15, and we 
will do so again on the data we collect through May 20. The 
facts are the facts, and while the administration and its 
allies furiously try to muddy reality, the public deserves 
transparency. While the administration toasts to the law's 
success with its Hollywood allies, declaring this conversation 
over, we will continue our pursuit for facts for the American 
people so we can finally have a full, accurate picture of this 
health care law.

    Mr. Burgess. I thank the chairman for yielding.
    I thank our witnesses for being here today. I know it's not 
always easy or pleasant to come before this subcommittee. I, 
like the chairman, wish that the administration had been a 
little bit more forthcoming about information which would have 
obviated your need to be here today, but I do appreciate the 
fact that you responded to our requests and that you have 
provided the data.
    The fact remains the administration has withheld facts or 
changed facts during the rollout of this law and that the 
Federal agencies responsible for the implementation currently 
excel only in opacity. So you are here today to provide that 
transparency that the American people were promised earlier in 
this administration, and I thank you for being here.
    I have particular concern over one aspect, and I will delve 
into it a little bit more during the questioning today, but 
that is the issue on the grace period, the 90-day period of 
time that is granted to people who are receiving the tax 
credits, the advance tax credits for the offset of the cost of 
their insurance. If they don't pay their premium in spite of 
the tax credit, they are given a grace period of 90 days.
    My understanding is that the companies will be responsible 
for the first 30 days; beyond that, it will be the doctor or 
the hospital, the provider who submits the bill who may be on 
the hook for that. And I am very interested to know what you 
have in development to keep practices, to keep providers 
apprised of the fact that a patient's claim may be in a pending 
status when that claim is submitted.
    I know from running a doctor's office, you always call and 
verify benefits, but now we have a new realm that we've entered 
into: Not only would you identify that someone has been 
enrolled, but that they've paid and that they're current on 
their payments so that the provider in question would not be at 
risk. So we will get into a little bit more on that in the 
question-and-answer period.
    I thank the chairman for the time and yield back.
    Mr. Murphy. Gentleman's time has expired.
    I now recognize the ranking member of the full committee, 
Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    Last week the Republican whip, Representative Kevin 
McCarthy, wrote an op-ed opposing the Affordable Care Act. He 
wrote, ``President Obama needs to learn a simple lesson: Saying 
something doesn't make it true.'' Well, psychologists call this 
projection, a defense mechanism that involves ascribing your 
own behavior to others.
    In one phrase, Representative McCarthy summed up 5 years of 
Republican opposition to the Affordable Care Act. Over and 
over, Republican leaders have fabricated criticisms of the 
Affordable Care Act and none of them have been true. Republican 
leaders said that the ACA would create death panels; well, 
there are none in the law. Republican leaders said that the law 
was unconstitutional; the Supreme Court held exactly the 
opposite. Republican leaders said that the ACA would increase 
the deficit; well, the nonpartisan Congressional Budget Office 
found that the law will reduce deficits by over $1 trillion. 
Republican leaders said that the law would cause health care 
costs to skyrocket; in fact, in the 3 years after passage of 
the ACA, health care spending growth was at its lowest rate in 
50 years.
    Republican leaders said that the law would cause massive 
job losses; in reality, there have been 48 consecutive months 
of job creation since the ACA was passed with more than 9.2 
million jobs created. Republican leaders said there would be a 
huge loss of coverage under the law, but every independent 
analysis shows that the number of Americans with health 
insurance is growing and the number of uninsured dropping 
rapidly. Republicans said enrollment would fall far short of 
CBO estimates because few Americans would sign up; at 8 million 
and growing, enrollment has exceeded everyone's expectations.
    Mr. Chairman, I just summarized 5 years of relentless 
Republican opposition to the Affordable Care Act. It's a sad 
and, I believe, reprehensible record. The Republican Party is 
trying to scare families from getting the health insurance they 
need. We saw the same pattern just last week when this 
committee released another report claiming imminent failure. 
This time, the report said that one-third of enrollees had not 
paid for coverage. There was just one problem: The data was 
incomplete, out of date, and manipulated. Due to the late surge 
in enrollment, premiums were not even due for over 3 million 
Americans.
    The testimony we're going to hear today from the insurers 
contradicts the Republican findings. That testimony says that 
80 to 90 percent of enrollees have paid their premiums. Mr. 
Chairman, it was a mistake to release those inaccurate and 
misleading findings, and it's not the first time this has 
happened.
    This morning, I released a memo describing the Republican 
record of distortion, exaggeration, and misdirection. It's a 
sad record, and I'd like to make it part of this hearing 
record. The simple fact is, despite 5 years of ceaseless 
opposition, the Affordable Care Act is working. Over 8 million 
Americans have signed up for private health care coverage on 
the State and Federal exchanges. Millions more have signed up 
for Medicaid. Premiums are well below CBO expectations. No 
American ever has to fear being discriminated against or denied 
coverage based on a preexisting condition.
    No amount of blatant falsehoods and cynical partisanship 
can obscure the facts. The Affordable Care Act is an enormous 
step forward in the health of our Nation. And I yield back the 
balance of my time, and I appreciate this opportunity to set 
the record straight.
    Mr. Murphy. Thank you. The gentleman yields back.
    We'll now move forward here with our witnesses. Just one 
moment, please. We're moving quicker and that's good. I just 
wasn't quite ready.
    So I'd like to introduce the panel for today's hearing. We 
have Mr. Mark Pratt, who is a senior vice president of State 
Affairs for America's Health Insurance Plans; Mr. Frank Coyne 
is the Vice President of Operations and Chief Transformation 
Officer of Blue Cross and Blue Shield Association; Mr. Paul 
Wingle is the Executive Director of Individual Businesses and 
Public Exchange Operations and Strategy for Aetna; Mr. Brian 
Evanko is the President of Individual Segment for Cigna Health 
and Life Insurance Company; Mr. J. Darren Rodgers is the Senior 
Vice President and Chief Marketing Officer at the Health Care 
Services Corporations; and Mr. Dennis Matheis is the President 
of Central Region and Exchange Strategy at WellPoint, Inc.
    I will now swear in the witnesses. You are aware that this 
committee is holding an investigative hearing and when doing 
so, we have the practice of taking testimony under oath. Do any 
of you have any objections to testifying under oath? All the 
witnesses have indicated no.
    The chair, then, advises you that under the rules of the 
House and the rules of the committee, you are entitled to be 
advised by counsel. Do you desire to be advised by counsel 
during your testimony today?
    Mr. Wingle is saying you would like to be advised by 
counsel. Well, if you are sitting behind him, that's fine.
    Anybody else? You have counsel behind you. You are 
certainly are welcome at some point to ask clarification from 
them, that's fine.
    In any case, would you all please rise and raise your right 
hand, and I'll swear you in.
    [Witnesses sworn.]
    Mr. Murphy. Thank you. You may be seated. All the witnesses 
have taken that oath, and you are now under oath and subject to 
the penalties set forth in Title 18, Section 1001 of the United 
States Code. We'll have you now each give a 5-minute opening 
statement. Please stick to the 5 minutes. You'll see a red 
light go on when you're at the end of your time.
    Mr. Pratt, you may begin.

   STATEMENTS OF MARK PRATT, SENIOR VICE PRESIDENT OF STATE 
  AFFAIRS, AMERICAS HEALTH INSURANCE PLANS; FRANK COYNE, VICE 
  PRESIDENT OF OPERATIONS, CHIEF TRANSFORMATION OFFICER, BLUE 
   CROSS AND BLUE SHIELD ASSOCIATION; PAUL WINGLE, EXECUTIVE 
DIRECTOR OF INDIVIDUAL BUSINESS AND PUBLIC EXCHANGE OPERATIONS 
   AND STRATEGY, AETNA; BRIAN EVANKO, PRESIDENT, INDIVIDUAL 
 SEGMENT, CIGNA; J. DARREN RODGERS, SENIOR VICE PRESIDENT AND 
 CHIEF MARKETING OFFICER, HEALTH CARE SERVICE CORPORATION; AND 
   DENNIS MATHEIS, PRESIDENT OF CENTRAL REGION AND EXCHANGE 
                   STRATEGY, WELLPOINT, INC.

                    STATEMENT OF MARK PRATT

    Mr. Pratt. Chairman Murphy, Ranking Member DeGette and 
members of the subcommittee, I am Mark Pratt, Senior Vice 
President of State Affairs in America's Health Insurance Plans. 
I lead AHIP's legislative and regulatory activities in the 
States, including implementation of the Affordable Care Act and 
our work with the National Association of Insurance 
Commissioners. We appreciate this opportunity to testify on 
enrollment in the new health insurance exchanges and 
implementation of the ACA.
    Our written testimony focuses on two broad areas: One, our 
members' experience in the ACA's initial open enrollment period 
for 2014; and two, our members' priorities for improving access 
to high-quality affordable health coverage in 2015 and beyond. 
Since the enactment of the ACA, our members have been working 
the implement the law's many requirements with a strong focus 
on delivering high value coverage options for consumers. 
Helping them obtain the secure, affordable coverage they need 
has been our central goal throughout the implementation 
process.
    While working on operational issues related to ACA 
implementation and providing recommendations to policymakers, 
our members have focused on several major goals. Among them: 
Minimizing disruptions for consumers, businesses and 
stakeholders; ensuring the workability of the exchanges and 
allowing State flexibility; maximizing choice and competition; 
and addressing specific ACA provisions to make health coverage 
more affordable.
    On numerous issues, our members have provided technical 
assistance and expertise to assist Federal agencies in 
resolving the operational challenges that surrounded the launch 
of the new exchanges in the HealthCare.Gov Web site. They have 
devoted significant resources to performing manual processes 
and workarounds that were necessitated by the problems 
following the October 1 launch. Despite the challenges our 
members encountered, we are proud that they ultimately were 
successful in offering a broad range of high-valued coverage 
options to consumers who are enrolled in exchanges in 2014.
    HHS has reported that approximately 8 million individuals 
signed up for exchange plans during the initial open enrollment 
period for 2014. While uncertainty remains with respect to how 
many people have paid their first month's premium, health 
insurers have been doing everything possible to encourage 
exchange enrollees to pay their premiums.
    In the coming weeks, we anticipate that there will be 
greater clarity on the question of how many exchange enrollees 
have paid their premiums. A number of individual plans have 
publicly announced their preliminary data, and we anticipate 
that more announcements will be forthcoming; however, it may be 
a period of time before system-wide numbers on premiums 
payments are available. Our members will continue their ongoing 
outreach to encourage exchange enrollees to pay their premiums.
    Looking forward, we continue to believe that affordability 
must be the central priority as we focus on further expanding 
access to high quality, affordable health insurance coverage in 
2015 and beyond. One critically important step that Congress 
can take to make coverage more affordable is to delay the ACA 
health insurance tax and eventually repeal it.
    We are deeply concerned that this tax is undermining 
efforts to control costs and provide affordable coverage 
options. We strongly support bipartisan legislation to fully 
repeal the tax introduced by Representatives Boustany and 
Matheson and cosponsored by 230 House members. We also support 
as a short-term solution separate bipartisan legislation that 
proposes a 2-year delay on the tax.
    On another front and in closing, we have worked closely 
with our members to provide comments to Federal agencies on 
dozens of proposed rules and other regulatory documents. We 
consistently have emphasized the importance of creating a 
regulatory environment that promotes a wide range of affordable 
coverage options. Thank you again for this opportunity to 
testify. I look forward to your questions.
    Mr. Murphy. Thank you, Mr. Pratt. I thank you for yielding 
back.
    [The prepared statement of Mr. Pratt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Murphy. Now, I recognize Mr. Coyne for his 5 minutes. 
Thank you.

                    STATEMENT OF FRANK COYNE

    Mr. Coyne. Good morning, Chairman Murphy, Ranking Member 
DeGette, and members of the subcommittee. Thank you for the 
invitation to testify here today. I am Frank Coyne, Vice 
President in the Office of the President for the Blue Cross and 
Blue Shield Association, which represents the 37 independent 
community-based Blue Cross and Blue Shield companies that 
collectively provide health coverage for 100 million Americans.
    Blue Cross and Blue Shield companies offer health care 
coverage in every ZIP Code in the country and have long been 
committed to offering consumers across the country a wide 
variety of insurance options. My remarks today focus on the 
Blue's participation in the Multi-State Plan Program 
administered by the Office of Personnel Management and 
enrollment in Blue Cross and Blue Shield MSP plans.
    The Affordable Care Act authorizes OPM to contract with at 
least two entities, at least one of which must be a not-for-
profit to offer products on the State and Federal marketplaces. 
Under this Multi-State Plan Program, OPM certifies health plans 
in conjunction with States for placement on the exchanges.
    For 2014, OPM certified Blue Cross and Blue Shield 
companies to offer Multi-State Plan products in 30 States and 
the District of Columbia. Collectively, Blue Cross and Blue 
Shield companies offered more than 150 Multi-State Plan 
products. OPM has developed a standard contract for OPM issuers 
that meets its requirements. The association is party to that 
contract with OPM and are Blue licensee plans have agreements 
with us to fulfill many aspects of that contract, such as 
customer enrollment, benefits and claims administration and 
customer service, among other activities.
    In addition, the contract contains a requirement to report 
enrollment information to OPM. In order to fulfill this 
requirement, we ask Blue plans to report information on their 
Multi-State Plan enrollments to us, and we convey enrollment 
information to OPM. As of April 1, 2014, a total of 283,783 
individuals have selected an MSP plan.
    I appreciate the opportunity to discuss Blue participation 
and enrollment in the MSP plan, and I look forward to your 
questions.
    Mr. Murphy. Thank you, Mr. Coyne.
    [The prepared statement of Mr. Coyne follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
    Mr. Murphy. Now, Mr. Wingle, you're recognized for 5 
minutes.

                    STATEMENT OF PAUL WINGLE

    Mr. Wingle. Good morning, Chairman Murphy, Ranking Member 
DeGette and distinguished members of the subcommittee. My name 
is Paul Wingle, and I am executive director of Individual 
Business and Public Exchange Operations and Strategy at Aetna. 
Thank you for inviting us to today's hearing. I have a brief 
opening statement and will then be happy to answer any 
questions you may have.
    Aetna is currently participating in the individual market 
on the exchanges in 17 States. Over the course of approximately 
the last 2 months, Aetna has worked with the subcommittee to 
provide requested data and information related to enrollment in 
plans offered through federally-facilitated marketplaces.
    As of the third week of April, Aetna had over 600,000 
members who had enrolled, and roughly 500,000 members who had 
paid. For those who are reached their payment due date, the 
payment rate, though dynamic, has been in the low- to mid-80 
percent range. As outlined in our prior submissions to the 
subcommittee, these are dynamic figures and do not reflect 
final enrollment numbers, as some enrollees have not yet 
reached their payment due dates.
    An example would be a member with a June 1 policy effective 
date who has not yet paid but whose initial payment is not yet 
due. We are happy to continue to work with the subcommittee to 
provide updated information and data and note that, as the 
subcommittee has recognized, this might include material, 
nonpublic, confidential, and proprietary information.
    Thank you again for the opportunity to be here today, and I 
would be happy to answer any questions you may have.
    [The prepared statement of Mr. Wingle follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Mr. Murphy. Thank you, Mr. Wingle, he yields back.
    And now, Mr. Evanko, you're recognized for 5 minutes.

                   STATEMENT OF BRIAN EVANKO

    Mr. Evanko. Chairman Murphy, Ranking Member DeGette, 
members of the subcommittee, good morning and thank you for the 
opportunity to testify at this hearing on PPACA enrollment and 
the insurance industry. I'm Brian Evanko, and I currently serve 
as president of the U.S. Individual Segment at Cigna 
Corporation. I oversee the operation tasked with developing, 
promoting and maintaining the Cigna products that are offered 
in the individual health market, including those products that 
are offered on the exchanges set up pursuant to the patient 
protection and Affordable Care Act, or ACA.
    Cigna is a global health services company dedicated to 
helping people improve their health, wellbeing, and sense of 
security. Through its subsidiaries, Cigna offers an integrated 
suite of health services, such as medical, dental, behavioral 
health, pharmacy and vision care benefits, along with other 
related products including group disability, life, and accident 
coverage.
    We employ more than 26,000 people and have sales capability 
in 30 countries and jurisdictions. We manage more than 80 
million customer relationships throughout the world. Despite 
our large footprint, 80 percent of Cigna's overall health care 
business consists of administrative services. This means that 
we help employers to administer their policies. We also 
administer claims processes which are not risk-based like 
traditional insurance. Many of the employers that we assist are 
self-insuring and the claim payments come out of the employer's 
own funds.
    Cigna's traditional insurance business is concentrated in 
the large group market. We have a very limited presence in the 
individual market, including on the ACA exchanges. The 
individual market currently constitutes approximately 3 percent 
of Cigna's total revenue. We currently offer health insurance 
products on the exchanges in five States, four of which--
Arizona, Florida, Tennessee, and Texas--are Federally-
facilitated marketplaces. The only state-run exchange in which 
Cigna is participating is in Colorado.
    We have entered the exchanges on a focus basis in 2014 to 
gather deeper learning about consumer behaviors in the 
individual market, to understand the operational implications 
of how the exchanges function, and as a potential longer-term 
source of growth for Cigna. For 2014, we did not expect the 
exchanges to have a significant financial impact on our 
company. The health insurance marketplace is evolving rapidly, 
and Cigna, like other health insurance companies, is constantly 
challenged to maintain affordability, accessibility, and 
consumer choice in its product offerings.
    Cigna has worked collaboratively with our clients and 
customers, health care professionals, state, and Federal 
regulators as well as other stakeholders to maintain our 
heritage of providing high-quality health insurance products 
and services while adapting to the ACA and other statutory and 
regulatory changes.
    We believe that health care is a shared responsibility of 
the individual, the private sector, the medical community and 
the government. Accordingly, we look forward to how we can all 
work together to improve the health and wellness of and the 
quality of care for all Americans. I'd welcome any questions 
that you may have.
    [The prepared statement of Mr. Evanko follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Mr. Evanko yields back, and now we go to Mr. 
Rodgers to be recognized for 5 minutes.

                 STATEMENT OF J. DARREN RODGERS

    Mr. Rodgers. Good morning, Chairman Murphy and members of 
the subcommittee. I'm Darren Rodgers----
    Mr. Murphy. Bring the mic as close to you as possible 
because we can't hear up here. Speak right into it.
    Mr. Rodgers. Good morning again, everyone. I'm Darren 
Rodgers. I'm Senior Vice President and Chief Marketing Officer 
at Health Care Service Corporation or HCSC. HCSC is a mutual 
legal-reserve company which does business as Blue Cross and 
Blue Shield of Illinois, Montana, New Mexico, Oklahoma and 
Texas. HCSC is the largest customer-owned nonprofit health 
insurance company in the Nation. We're headquartered in 
Chicago, Illinois, with a workforce of nearly 20,000 employees 
serving nearly 14 million members throughout our five State 
Blue Cross and Blue Shield plans.
    For over 80 years, HCSC has been committed to expanding 
access to cost-effective health care to as many people as 
possible in every part of each of our five States. Whether 
through employer-sponsored insurance, government programs or 
individual products, HCSC is committed to its purpose and to 
offering our customers a wide range of cost-effective and 
sustainable product choices to meet their health and wellness 
needs.
    As we transition to a new health care marketplace, HCSC 
remains committed to its individual and small employer markets 
and continuing to offering accessible products, particularly to 
those individuals who do not have access to employer-sponsored 
coverage.
    We're proud of what our brand stands for: Security and 
peace of mind, and our commitment to our communities in which 
we operate, as well as our large and geographically-diverse 
network of health care providers in our operating States. This 
allows us to offer a variety of affordable product choices in 
every county of every State in which we operate.
    To support our individual and small-employer market, HCSC 
participated in the health insurance exchanges. We offered a 
similar portfolio of products both on and off exchange with a 
variety of deductibles, copays, coverages and other options 
with the goal of meeting our members' diverse health care 
needs.
    At the current time, enrollment and payment information can 
only be presented as of each day when the numbers are counted. 
As such, there are natural lags between the effective date of 
coverage and the date on which the members' coverage payment 
may be due. For instance, applicants with policies with an 
effective date of May 1 still have time remaining in their 
payment deadline. In addition, adjustments and reconciliations 
to this data are ongoing. The data HCSC is providing represents 
our good-faith estimate based on our records to date.
    With these caveats, HCSC received between October 1, 2013, 
and April 15, 2014, approximately 830,000 applications across 
our five States, comprised of approximately 600,000 on-exchange 
and 230,000 off-exchange applications. We estimate that these 
830,000 applications represent coverage for just over 1.2 
million applicants.
    In the written copy of my opening statement, we provided a 
snapshot of our current first-month payment rates. As you can 
see, January through April looked fairly consistent and range 
from 83 to 93 percent. The payment rates for May are currently 
less because payments are still coming in and being posted.
    HCSC is and always has been committed to improving access 
to quality of care for all Americans. I thank you on behalf of 
HCSC for the opportunity to be a part of this important 
discussion.
    Mr. Murphy. I thank the gentleman.
    [The prepared statement of Mr. Rodgers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
        
    Mr. Murphy. Now, Mr. Matheis, you are recognized for 5 
minutes.

                  STATEMENT OF DENNIS MATHEIS

    Mr. Matheis. Chairman Murphy, Ranking Member DeGette and 
members of the House Energy and Commerce Subcommittee on 
Oversight and Investigations thank you for the opportunity to 
be here today on behalf of WellPoint. I am Dennis Matheis, 
President of the Central Region and Exchange Strategy. I am 
responsible for creating WellPoint's exchange strategy and 
overseeing its launch. Prior to my current role, I was 
President of Anthem Blue Cross and Blue Shield in Missouri.
    WellPoint is one of the Nation's leading health benefit 
companies. We believe that our health connects us all, so we 
focus on being a valued health partner in delivering quality 
products and services that give members access to the care they 
need. With nearly 67 million people served by our affiliated 
companies, including nearly 37 million enrolled in our family 
of health plans, we can make a real difference to meet the 
needs of our diverse constituents.
    We are an independent licensee of the Blue Cross and Blue 
Shield Association. We serve members as the Blue Cross licensee 
for California, and as the Blue Cross and Blue Shield licensee 
for Colorado, Connecticut, Georgia, Indiana, Kentucky, Maine, 
Missouri, Nevada, New Hampshire, New York, Ohio, Virginia, and 
Wisconsin. In most of these service areas, our plans do 
business as Anthem Blue Cross, Anthem Blue Cross and Blue 
Shield, Blue Cross and Blue Shield of Georgia and Empire Blue 
Cross and Blue Shield or Empire Blue Cross. We also serve 
customers in other States through our Amerigroup and CareMore 
subsidiaries.
    WellPoint is currently operating in the federally-
facilitated exchange, which includes Georgia, Indiana, Maine, 
Missouri, New Hampshire, Ohio, Virginia, and Wisconsin. We also 
participate in several State-based exchanges, including 
California, Colorado, Connecticut, Kentucky, New York and 
Nevada.
    While there is no doubt that implementation of the 
exchanges presents a complex and daunting undertaking, we 
believe we've been able to apply our knowledge and experience 
to make the system work better for our members. We are seeing 
strong membership growth and large percentages of our newly-
enrolled customers are successfully paying their premiums by 
the due date.
    Our most important priority through all of the complexity 
of ACA implementation is to ensure that our members receive the 
best possible care. Working closely and collaboratively with 
the physician community, our innovative programs from new 
payment models to telehealth solutions to sophisticated data 
analytics that arm physicians with better information, we are 
creating value for our members, for our physicians and for the 
health care system. We are proud of the work we are doing to 
transform health care.
    WellPoint was pleased to provide the committee last month 
with enrollment data from October 1, 2013, through April 15, 
2014, for States where we participate in the federally-
facilitated exchange. As we stated to the committee at the time 
of submission, this data is not final and only represents a 
snapshot in time. The data included enrollees whose policies 
have effective dates of April 1, May 1 and June 1, which means 
that premiums for such policies would not be due until April 
10, May 10, and June 10, respectively.
    Also, the reported enrollment in premium payment data is 
subject to adjustments. For example, enrollees may elect to 
drop their coverage, elect to change the effective date of 
their coverage after submission of their application, or 
continue to enroll through special enrollment periods. In 
response to the committee's request, we submitted the total 
number of applications received for enrollment in the 
federally-facilitated exchange during the period of October 1, 
2013, through April 15, 2014.
    The percentage of applications that have paid a premium 
will differ depending on whether the percentage is calculated 
based on the total number of applications and premium payments 
received during this entire period, roughly 70 percent; or as 
calculated based on the total number of applications and 
premium payments received for policies whose premium deadline 
has passed, ranging up to 90 percent depending on the State.
    WellPoint feels privileged to be able to serve our growing 
community of members. We take great pride in transforming 
health care with trusting, caring, creative and innovative 
solutions. I thank the committee for the opportunity to testify 
today on behalf of WellPoint and look forward to your 
questions.
    Mr. Murphy. Thank you.
    [The prepared statement of Mr. Matheis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Murphy. For the record, all the witnesses did not go 
over time, and we'll make sure we fill in the gaps here what 
has not been provided to us and see if we can get some 
information.
    Do any of you, particularly from the insurance companies--
I'm recognizing myself for 5 minutes, by the way--have any data 
among those people who have subscribed, if the costs they are 
paying for their overall health insurance plan is more, less, 
or the same as they were paying in a previous year? Mr. Wingle, 
do you keep that data?
    Mr. Wingle. I don't have that data available.
    Mr. Murphy. Mr. Evanko, do you know if your plan has that?
    Mr. Evanko. I don't have specific figures to share. I can 
try to provide some context.
    Mr. Murphy. Would you submit it for the record.
    Mr. Rodgers, Mr. Matheis, do your plans keep a record of 
what people paid in a previous year versus what they're paying 
now?
    Mr. Rodgers. No, I haven't looked at that information.
    Mr. Murphy. Thank you.
    And of those who all have signed up for insurance, do any 
of your companies ask for or have any data if people were among 
those who had lost their insurance, that is their insurance was 
canceled because of change in the Affordable Care Act? Any of 
you from insurance companies, do any of you have that data?
    Mr. Matheis. We currently do not have that information 
available.
    Mr. Murphy. OK. All right. Thank you.
    So we don't know if the people who were signing up with 
these health insurance plans are people who are renewing 
insurance, had lost insurance or never had insurance, am I 
correct? Mr. Wingle? Mr. Evanko? Mr. Rodgers? Matheis?
    Mr. Matheis. That's correct.
    Mr. Murphy. I know Secretary Sebelius said that she did not 
think we had that data either.
    Mr. Wingle, your Chief Executive, Mark Bertolini, said that 
premium rates in 2015 will range from very low single digits to 
some that will be over double digits. Can consumers expect this 
for their 2015 premiums?
    Mr. Wingle. It's important to recognize, first of all, that 
we're at the start of the rate filing and approval process, so 
we're very early in the process of establishing those rates and 
submitting them to State regulators for approval and review. 
Our rates, it's also important to understand, reflect a number 
of key factors, most importantly the benefits covered by the 
plans we're filing, the population covered by those plans and 
the underlying health care costs in the geographies where those 
plans are offered. There will be some variability across 
geography and depending on those circumstances.
    Mr. Murphy. Some might face double-digit increases? We 
don't know yet, you're saying?
    Mr. Wingle. I can't say for certain whether some will pay 
double digits, single digits or no increase at all. It's too 
early to say.
    Mr. Murphy. If there's no increase in insurance, we should 
all celebrate because I'm not sure that has existed in my 
lifetime.
    Will there be decreases?
    Mr. Wingle. It's hard to say. It will vary by geography and 
rating factors.
    Mr. Murphy. All right. Mr. Matheis, you announced your 
quarterly earnings and noted that the ramp-up in the fee of 
government is charging insurers under the health care law would 
impact marketplace premiums next year. What can consumers 
expect?
    Mr. Matheis. So similar to my colleague's comment, we are 
in the process of developing our rates now for the 138 rating 
regions in which we do business across the 14 states. So I 
don't have exact numbers yet, chairman, in terms of what our 
rate increases are going to be. Certainly, inputs into that are 
the experience that we're developing through the population 
that we're serving, the expected medical trend that's going to 
occur and then the fees and taxes that occur through the ACA 
and through State and other Federal constructs, that all goes 
into the rate construct process.
    Mr. Murphy. I think I'm going down the same hole with each 
of you, so let me cut to the chase. The bottom line here is, 
you do get for risk corridors, you do get some money back from 
the Federal Government to balance out some of your costs, am I 
correct, with each plan? Mr. Evanko, is that true?
    Mr. Evanko. The risk corridors, as you know, sir, are part 
of the three Rs. We at Cigna Corporation are not expecting a 
material, receivable or payable, as it relates to risk 
corridors.
    Mr. Murphy. My point is that, as we're looking at this 
data--and we'll continue to monitor and we recognize some of 
this is still preliminary--based upon who has signed up and 
what their health care costs are, for example, if you don't 
reach the 40-percent number that the President had hoped, 
people between 18 and 35, and mostly those who signed up have 
been the older and sicker, then that's going to have an impact 
upon your plan costs. Am I correct, Mr. Rodgers?
    Mr. Rodgers. Could you restate that question?
    Mr. Murphy. That if people who have signed up are not the 
young, healthy invincibles but are indeed the older folks who 
have preexisting conditions and other health care costs, that 
you're going to have to face some sort of increase in premiums. 
Am I correct?
    Mr. Rodgers. Well, as two of my colleagues have said, the 
rates that we file for 2015 haven't been finalized yet, but 
those will reflect----
    Mr. Murphy. I understand. I am anticipating. You've been in 
the business for a while.
    And the Federal Government does provide some funds for you 
to help balance these out. Am I correct? Federal money comes to 
you to help as the risk corridors, and you have other people 
there who, the increased--costs go up. Am I correct?
    Mr. Wingle. The three Rs program does exist to provide some 
guard rails. We have not----
    Mr. Murphy. Right. And but over time, that amount of money 
from the Federal Government will decline. Am I correct?
    Mr. Wingle. Some of those programs are transitional and 
one's permanent.
    Mr. Murphy. I understand. But we'll get back to this. Thank 
you.
    I yield and now recognize Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman. Last week, the 
majority Republicans on this committee put out a report stating 
that only 67 percent of the people who signed up for insurance 
through the State and Federal marketplaces had paid their first 
month's premiums and then had a big press blitz about that 
saying that Obamacare had once again failed. So I kind of want 
to walk some of you through that allegation and see how true it 
is.
    I want to start with you, Mr. Matheis. I believe that the 
press reports I've seen, the reports from the administration 
show that through the end of March, which was the deadline, 
about 8.1 people enrolled through either the Federal or State 
exchanges. Is that correct, to your knowledge?
    Mr. Matheis. Did you mean 8.1 million?
    Ms. DeGette. Yes.
    Mr. Matheis. Yes. I have the same source of data that you 
do on that point.
    Ms. DeGette. That's fine.
    Now, in your testimony, you said that the data used in that 
Republican analysis, quote, included enrollees whose policies 
have effective dates of April 1, May 1, and June 1. Is that 
correct?
    Mr. Matheis. Yes.
    Ms. DeGette. And that's about 3 million out of 8 million 
people, about 40 percent. Is that correct?
    Mr. Matheis. Again, since we didn't enroll all 8 million 
people, I can't attest to that question or not.
    Ms. DeGette. But, OK. Well, I will say what I've seen is 
it's about 3 million out of 8 million. Now, so the 3 million 
people who enrolled--or let me just say, the people who 
enrolled in March, they had coverage, in general, that began no 
earlier than May 1. Is that right?
    Mr. Matheis. If you enrolled in March, you would have 
potentially an effective date, depending on what day of the 
month you enrolled in, could be April 1, could have been May 1.
    Ms. DeGette. May 1. And so those peoples' premiums were not 
due until at the earliest, the end of April; is that correct? 
If you enrolled March 31, your premiums were due at the end of 
April or later, right?
    Mr. Matheis. To help facilitate members enrolling, what we 
have done at WellPoint is actually extended the payment period 
10 days beyond the last day of the effective month.
    Ms. DeGette. So it could be April 30, or it could be even 
later, correct?
    Mr. Matheis. So an April 1----
    Ms. DeGette. Yes or no will work.
    Mr. Matheis. An April 1 effective----
    Ms. DeGette. Right.
    Mr. Matheis. [continuing]. Would actually have until May 10 
to pay their premium.
    Ms. DeGette. OK. Now, Mr. Matheis, let me ask you, your 
testimony said, while WellPoint ACA's policies whose deadline 
for paying premiums has passed, about 90 percent have paid 
their premiums. Is that correct?
    Mr. Matheis. So our data in our----
    Ms. DeGette. You can say yes or no. That's what your 
testimony said.
    Mr. Matheis. Yes. So it's----
    Ms. DeGette. OK. Now, that's more than 67 percent. Is that 
correct?
    Mr. Matheis. Last time I looked, yes. Greater than 67.
    Ms. DeGette. Now, Mr. Wingle, let me take you off the hot 
seat, Mr. Matheis.
    Mr. Wingle, I want to ask you, Aetna has shown of the 5- to 
600 enrollees who have paid, about 85 percent up until March 
paid their premiums. Is that correct?
    Mr. Wingle. Our range is in the low- to mid-80s, month to 
month.
    Ms. DeGette. OK. And that's also more than 67 percent, 
isn't it?
    Mr. Wingle. Empirically, yes.
    Ms. DeGette. Yes.
    And Mr. Rodgers, let me ask you, for your company, the ACA 
payment policies whose premium payment deadlines have passed, 
about 83 to 85 percent of them have paid their premiums; is 
that correct?
    Mr. Rodgers. Yes, except for the most recent month.
    Ms. DeGette. Right. The ones whose payment deadlines have 
passed.
    Mr. Rodgers. Yes, that is correct.
    Ms. DeGette. Yes. And that's also more than 67 percent, 
isn't it?
    Mr. Rodgers. That is more than 67 percent.
    Ms. DeGette. Yes. So what I wanted to ask about is, do any 
of you expect to see substantially lower payment percentages 
than you saw historically before the latest enrollment? Mr. 
Matheis.
    Mr. Matheis. So I will give a little context to my answer.
    Ms. DeGette. OK. I need a yes or no. I don't have much 
time. I'm sorry.
    Mr. Matheis. Well----
    Ms. DeGette. Do you expect to see it go down to 67 percent 
for April?
    Mr. Matheis. I don't think we have enough information to 
know exactly where it's going to be.
    Ms. DeGette. OK. Well, Mr. Rodgers, let me ask you this 
question, then: Mr. Upton said that he thinks suddenly, maybe 
they won't pay for their enrollment in March. So I wanted to 
kind of go through, because you've got a nice chart in your 
testimony and it shows the payments month by month that people 
made when they enrolled. So for 1/1/2014 on the exchange, 85 
percent of the people paid; is that correct?
    Mr. Rodgers. That's correct.
    Ms. DeGette. For 2/1/2014, 86 percent paid, correct?
    Mr. Rodgers. That's correct.
    Ms. DeGette. For 3/1/2014, 88 percent paid; is that 
correct?
    Mr. Rodgers. Yes.
    Ms. DeGette. And for 4/1/2014, 83 percent paid; is that 
correct?
    Mr. Rodgers. That is correct.
    Ms. DeGette. And you're still waiting for everybody else to 
pay because their deadline has not passed yet; is that correct?
    Mr. Rodgers. That's correct.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Murphy. Can I just follow up with a clarifying 
question: When she asked about historical data, were you 
referring to the last couple months or comparison with previous 
years under different plans?
    Ms. DeGette. Well, we didn't have an exchange.
    Mr. Murphy. No, no, I just----
    Ms. DeGette. Chairman, we only just got the exchange.
    Mr. Murphy. No, I wasn't sure if you meant under historical 
you mean previous years of plans versus just the exchange.
    Ms. DeGette. Mr. Chairman, what I mean is since the ACA was 
implemented starting on October 1.
    Mr. Murphy. OK. Thank you. I just wanted clarification on 
that.
    Now recognize Ms. Blackburn for 5 minutes.
    Mrs. Blackburn. Thank you all so much for being with us. I 
want to say with this issue on the premiums because we get 
asked about this a lot.
    So Mr. Wingle, Aetna, your CEO said that premium increases 
will vary over 17 States and encompass 132 rating areas, 
correct?
    Mr. Wingle. That is correct.
    Mrs. Blackburn. OK. Can you identify where premiums will 
decrease in 2015? What identification can you place on that?
    Mr. Wingle. At this point in the filing season, we can't 
offer any guidance on or speculate on where they're going to 
fall. We're still gathering the information for file.
    Mrs. Blackburn. None?
    Mr. Wingle. I can't say none. I can't say any.
    Mrs. Blackburn. OK. Mr. Matheis, can you tell me, identify 
any States where you are offering products in the exchanges 
where consumers can expect a premium decrease?
    Mr. Matheis. At this juncture, we do not have the 
information.
    Mrs. Blackburn. You don't have the information?
    Mr. Matheis. No. The filing rates are due starting in late 
May into June, and so we have not computed yet with any 
certainty what the actual rates are going to look like in our 
138 rating regions.
    Mrs. Blackburn. OK. A lot of uncertainty floating around 
out there.
    OK, Mr. Evanko.
    Mr. Evanko. I would echo my colleague's comments. We're in 
the process making decisions. Some decisions on certain 
assumptions have been made, but most assumptions are still to 
be determined.
    Mrs. Blackburn. So you don't know if your consumers are 
going to see any decreases. You know they were promised 
decreases through the Affordable Care Act, so.
    OK, Mr. Rodgers, to you.
    Mr. Rodgers. As the company's marketing officer, I can tell 
you I'm not involved in rate setting, but I'm aware of some of 
the deadlines we're facing which are generally toward the end 
of June.
    Mrs. Blackburn. OK. Well, let me ask you all this, then: 
Have any of you conducted any internal analysis of what your 
organizations premiums are going to look in 2015? Do any of you 
have any internal analysis? Raise your hand for me. So you all 
have conducted no--we've got some of our Nation's biggest 
insurers, and you have done no internal analysis on what the 
trend line is for these premiums? None?
    Mr. Evanko. Ms. Blackburn----
    Mrs. Blackburn. Oh, Mr. Evanko, have at it.
    Mr. Evanko. So I'd like to clarify our comments here a 
little bit, or at least my comments as it relate to this issue. 
So the decisions related to this are very complicated and they 
impact each individual a little bit differently because of 
where someone's located, maybe what their APTC eligibility is, 
et cetera. So there's a long list of reasons there.
    Mrs. Blackburn. Right. We understand that. You're talking 
about a 2,300 page law that became about over 20,000 pages of 
rules and regulations and we know this changes daily. We 
appreciate the predicament that you are in. We also appreciate 
the predicament that our constituents find themselves in.
    And it is baffling that we can have some of our Nation's 
largest insurers and you all don't have any internal analysis 
as to what these rates are--I thought that, reading your 
reports, you all did analysis in trend lines for the near-term, 
the midterm and the long-term and you looked at what the 
expectations were so that your stakeholders would all be aware 
of what was happening within that market. You know, has anybody 
done any kind of analysis?
    Mr. Matheis. So can I answer your question?
    Mrs. Blackburn. Yes, please. Have at it, Mr. Matheis. Your 
mic, please.
    Mr. Matheis. So analysis is typically ongoing in our 
organization. Rate development typically takes 3 to 6 months to 
occur once you have credible information. And so just for 
context purposes, we, and as has been stated earlier in this 
meeting----
    Mrs. Blackburn. Let me----
    Mr. Matheis. Let me finish.
    Mrs. Blackburn. OK. Go ahead.
    Mr. Matheis. [continuing]. We are just now understanding 
what membership we have attracted and so the work is ongoing, 
but it has not been finalized. And that's the important point.
    Mrs. Blackburn. Let me ask you this: What has been prepared 
for your CEO? Any of you?
    Mr. Matheis. At this juncture, we do not have a compiled 
package to sit down and say, here is what we believe a rate is 
going to be in any of our 130 rate areas.
    Mrs. Blackburn. When do you expect to have that?
    Mr. Matheis. Typically, it will be towards the end of this 
month, as rates need to be filed in our States starting end of 
May through the June or July time period.
    Mrs. Blackburn. Would you submit that to us for the record, 
each of you. Do you agree to submit this for the record so that 
we will have this?
    Mr. Wingle. And representative, I want to concur with my 
colleague, we are constantly analyzing our exchange experience. 
This is a new population. We don't have the long claims record 
or history we had in the previous market, so the more data we 
get the better and more confident we feel as we propose rates. 
It's an ongoing analysis. It's a constant analysis.
    Mrs. Blackburn. OK. We appreciate that, and we would like 
to have that analysis and the information you have as you get 
it and ask that you please stay in touch with us and do those 
orderly insertions for the record.
    I yield back, Mr. Chairman.
    Mr. Murphy. Gentlewoman yields back, and now recognize Mr. 
Dingell for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy 
and I thank you for the hearing. I'm pleased the committee is 
examining the first open enrollment period under the Affordable 
Care Act. I would like to examine the staff report where it 
claims only 67 percent of Obamacare enrollees have paid their 
first month's premium. We want to find out whether that's so 
and what it means.
    The bottom line, I think, is the ACA is working. After a 
turbulent start we got the Web site up. It's running and HHS 
now reports that 8 million people have selected plans through 
the exchanges. Furthermore, some 4.8 million people are 
enrolled in Medicaid and CHIP, and that number would be much 
higher if all 50 States chose to expand Medicaid.
    CBO estimates that another 5 million people purchased ACA-
compliant plans outside the marketplaces. Finally, Gallup just 
found that the percentage of Americans who do not have health 
insurance fell to 13.4 percent, down from some 18 percent 1 
year ago.
    So let's examine and see what goes on.
    This question to Mr. Matheis. And ``yes'' or ``no,'' if you 
would, please. When WellPoint turned over enrollment figures to 
the majority, you did this under the caveat that the data was 
not final and only represented a snapshot in time. Is that 
correct?
    Mr. Matheis. Yes, it is.
    Mr. Dingell. Yes?
    Mr. Matheis. Yes.
    Mr. Dingell. Now, this question, again to you, Mr. Matheis. 
And that is because the committee only requested data through 
April 15, 2014; is that correct?
    Mr. Matheis. Yes, it is.
    Mr. Dingell. Now, Mr. Matheis, is it correct that the 
people who signed up after May 15 may not have to pay their 
premium until later in April, May, or even June, yes or no?
    Mr. Matheis. Is there anybody after April 15th, would 
have--would have a longer time----
    Mr. Dingell. Those folks who signed up after March 15th.
    Mr. Matheis. Yes.
    Mr. Dingell. Now, Mr. Matheis, is it correct that nearly 90 
percent of WellPoint's customers whose premium deadline has 
passed have already paid their first month's premium, yes or 
no?
    Mr. Matheis. Yes, it is.
    Mr. Dingell. Now, in your experience, have you found that 
people are more likely to make their premium payment right 
before the deadline?
    Mr. Matheis. That is typically human nature, sir.
    Mr. Dingell. And we know that from the behavior of 
Americans with regard to income tax and things like that.
    Now, this question is for Mr. Wingle of Aetna. Is it 
correct that, according to your best estimate, roughly 80 
percent of Aetna beneficiaries who have reached their payment 
due date have paid their first month's premium, yes or no?
    Mr. Wingle. Month to month, it ranges from the low to mid 
80s.
    Mr. Dingell. Say that again?
    Mr. Wingle. It ranges from the low to mid 80s, month by 
month.
    Mr. Dingell. Thank you.
    Now, this question is for you, Mr. Coyne of Blue Cross-Blue 
Shield. Is it correct that, according to your best estimate, 80 
to 85 percent of the individuals buying Blue Cross-Blue Shield 
plans through the marketplace have paid their first month's 
premiums, yes or no?
    Mr. Coyne. Yes, that is correct.
    Mr. Dingell. I'm not hearing you, sir.
    Mr. Coyne. Yes, that is correct, based on----
    Mr. Dingell. That's correct.
    Mr. Coyne. [continuing]. A report we----
    Mr. Dingell. Now, gentlemen, it doesn't take, I think, a 
genius or an atomic physicist to figure out the numbers we just 
heard from the actual insurance companies greatly differ from 
the staff report. I hope everyone will take these companies at 
their word instead of falling for smoke and mirrors from my 
friends on the other side of the aisle.
    I can understand why my friends on the other side of the 
aisle are not in attendance, because they would get a very 
unpleasant taste of fact which they might not like. My old 
daddy taught me, he used to say to me, ``Son, figures don't 
lie, but liars can figure.''
    And I have always thought that it would be a good thing, 
when this committee does its business, that we know what we are 
doing, that we deal in hard facts, so that when the legislation 
that we work on, the laws that we are dealing with, the 
oversight in which we engage actually lead us to truth and 
correct response, so that public policies may be founded on 
fact rather than fiction and on staff reports that mislead all.
    I would suggest that the staff report should be reviewed 
with the utmost of care and deposited then very carefully in 
the nearest large wastebasket.
    Thank you, Mr. Chairman.
    Mr. Murphy. The gentleman yields back.
    I now recognize the Vice Chair of the committee, Dr. 
Burgess, for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. I thank you for the 
recognition.
    I would remind the chairman emeritus that we are friends.
    Let me ask you a question. April 17th, the day the 
President came out with his ``mission accomplished'' speech at 
the White House in the press briefing, there was a briefing of 
executives of your companies; is that correct?
    Anyone is free to answer.
    Mr. Matheis. I believe that was correct, sir.
    Mr. Rodgers. That is correct, yes.
    Mr. Burgess. And was your company represented?
    Mr. Rodgers. I'm not sure which particular meeting you're 
describing, but I know there have been some.
    Mr. Burgess. Well, let me give you the particular meeting. 
It was on April the 17th at 1:35 p.m., the President and Vice 
President meet with insurance executives in the Roosevelt Room.
    Did that meeting take place?
    Mr. Matheis. WellPoint was present at that meeting, sir.
    Mr. Burgess. WellPoint was present.
    Was Cigna present?
    Mr. Evanko. Our CEO was not present at that meeting.
    Mr. Burgess. Your--was not. OK.
    Mr. Wingle. I'm advised that our CEO was not present at 
that meeting.
    Mr. Burgess. That was Blue Cross?
    Mr. Wingle. That's Aetna for me.
    Mr. Burgess. Was Blue Cross represented at the meeting?
    Mr. Coyne. I don't have that information right now.
    Mr. Burgess. Well, for those that were----
    Mr. Pratt. And just for the record, I'm advised that AHIP's 
President was present at the meeting.
    Mr. Rodgers. And I don't--I can't remember the exact date 
of those meetings, but I can tell you that when we are called 
to the White House, generally we would attempt to be there.
    Mr. Burgess. Well, it was April 17th. I mean, I would think 
you'd remember. It's a pretty big deal. I mean, I haven't had a 
meeting with the President or the Vice President.
    Ms. DeGette. Would the gentleman yield? Perhaps----
    Mr. Burgess. No, I will not. No, I will not. My time is 
limited.
    What I would like, from those that answered affirmatively, 
Mr. Matheis and Mr. Pratt, can you provide us information as to 
what was covered in that meeting--who made the presentation, 
how long it was? And was there, in fact, time for there to be 
question and answer, or was it simply a presentation to you 
from the President and Vice President?
    Mr. Matheis. Mr. Congressman, I was not personally present 
at that meeting, our CEO was, and I do not know the facts of 
the meeting.
    Mr. Burgess. Would you make an attempt to answer for me 
those questions? Was this an interactive process, or was this a 
proclamation? Was it a monologue, or was it a dialogue?
    And, Mr. Pratt, if you would provide us that information, 
as well.
    And here is the deal. I mean, why am I making a big deal of 
this? You all are here today because the White House won't 
respond to us. And I would think, if it was possible for the 
White House to provide a briefing to your executives on April 
17th, that same person could be made available to this 
committee and be prepared to answer our questions. I don't see 
what is so difficult about that. If the news is as great as 
everyone has said it is this morning, I think that they would 
welcome the opportunity to come to our committee and give us 
the information that we are asking for.
    Look, one of the questions that I raised in the opening 
statement, and I do want your answers on this because it is 
important, this 90-day grace period and the coverage that can't 
be cancelled during that 90-day grace period because of 
nonpayment. Is there any way for any of your individual 
companies to keep up with that information on a rolling basis 
and keep your providers informed as to the status of a person's 
payment or nonpayment of their premium?
    We'll start with you, Mr. Coyne, and let's just work down 
the table.
    Mr. Coyne. We are working with Blue Plans to inform 
providers of the enrollee's status, as you indicated.
    Mr. Burgess. Mr. Wingle?
    Mr. Wingle. Yes. We do have a unique identifier for our 
exchange membership on the ID card, and we do provide updates 
on the member's payment status in our physician information 
centers. So when the physician offices call or the provider 
calls, they understand what the payment status is of the 
member.
    Mr. Burgess. Mr. Evanko?
    Mr. Evanko. Our doctors and our hospitals that are 
servicing our customers have the ability to either call or 
check online the status of the individual's payment grace-
period situation.
    Mr. Burgess. And, Mr. Rodgers, would that even pertain to 
you?
    Mr. Rodgers. Yes. Similarly, we have electronic means as 
well as a telephone service for providers of various types to 
verify coverage.
    Mr. Burgess. And Mr. Matheis?
    Mr. Matheis. Yes, we provide the same service.
    Mr. Burgess. And what I would ask of each of you is, will 
you make available to the committee the type of information and 
how it is transferred to your providers, your doctors and 
hospitals, when they call for that information?
    And then, Mr. Chairman, further, I would like to ask 
unanimous consent--the Secretary was here in December, the 
Secretary of Health and Human Services. After that hearing, I 
submitted a letter to the Secretary with several questions that 
I wanted answered. They have not been answered to date.
    I am going to ask those same questions of our insurance 
representatives today. I am going to ask those in writing, and 
I would appreciate your response to those questions that the 
Secretary was unwilling to answer.
    Ms. DeGette. Reserving the right to object. I would just 
point out that the Secretary was here in front of this 
committee testifying three times last year. And if there are 
questions she has not answered, we certainly will be happy to 
work with the majority and get those questions answered.
    Mr. Murphy. Well, the Members do have the right to----
    Ms. DeGette. I will drop my reservation.
    Mr. Murphy. [continuing]. Submit questions for panelists.
    Mr. Burgess. And I will be submitting those questions in 
writing for our panel.
    Thank you, Mr. Chairman.
    Mr. Murphy. Mr. Green, you are now recognized for 5 
minutes.
    Mr. Green. Thank you, Chairman Murphy and Ranking Member 
DeGette, for having this hearing today, and our witnesses for 
the testimony.
    My district in Texas is a very urban district in Houston 
and has one of the highest rates of uninsured people who don't 
receive insurance through their employer in the country.
    One of the other talking points that my Republican 
colleagues have seized upon last year, especially when the 
HealthCare.gov was encountering problems early in the 
enrollment period, was the idea that fewer people would have 
health insurance following the implementation of the Affordable 
Care Act than did beforehand.
    Now, I know that all our representatives here today see 
that the information and how many people they have enrolled and 
their total number of customers are proprietary, and I 
understand that. But you are all also, I would hope, familiar 
with the general insurance landscape and how it has changed 
under the Affordable Care Act.
    Earlier this week, the Gallup Poll released a survey 
examining the total number of Americans that have insurance.
    Mr. Pratt, are you familiar with that survey?
    Mr. Pratt. Generally, yes.
    Mr. Green. The Gallup Poll conducted interviews with 14,000 
American adults. Gallup found that the number of adults without 
insurance had dropped to its lowest level since the beginning 
of 2008. A drop of this magnitude correlates to more than 11 
million people gaining coverage.
    Are you familiar enough with the poll to say that that 
sounds like a reasonable amount?
    Mr. Pratt. Congressman, I think that's what they reported. 
I'm not in a position to say whether that's a reasonable amount 
or not.
    Mr. Green. OK.
    Anyone else on the panel want to talk about that Gallup 
poll? Because, you know, again, these are what we are seeing 
since the enrollment period ended.
    RAND and The Urban Institute released similar reports in 
March and April. Are any of you familiar with these reports?
    Mr. Matheis. Just very generally, Congressman.
    Mr. Evanko. I'm not familiar with the reports.
    Mr. Green. OK. Well, in early April, RAND Corporation 
released the results of their poll, which found the overall 
number of Americans with insurance had grown to 9.3 million as 
of mid-March, even before the late enrollment date surge. The 
Urban Institute also released a report in the past month 
suggesting that millions more people have coverage than before 
the ACA was implemented.
    My question of any of our witnesses: Would you agree that 
the findings of these, whether it be RAND, Gallup, or The Urban 
Institute, are consistent with millions of Americans signing up 
for health insurance? Did you all experience that with your 
companies during the signup, that they selected your company as 
part of the--if you happened to be part of the exchange, both 
national or the State exchanges?
    Mr. Matheis. Congressman, at WellPoint, we do not have 
enough information at this point to know how many uninsured are 
actually among the enrollees, because we just don't have access 
to that data at this point.
    Mr. Green. OK.
    Well, generally, the ACA has led to a huge increase in 
coverage. Even without the polls, we have seen some of the 
numbers. And can you verify that with your companies, whether 
it would be WellPoint, Blue Cross? Have you seen that increase 
in the number of people who have signed up with your companies 
since the deadline?
    Mr. Rodgers. Speaking for Healthcare Service Corporation, I 
provided in my written testimony as well as in my opening 
comments the number of people that we signed up on- and off-
exchange through the open enrollment period. I can't tell you 
today how many of those came from the ranks of the uninsured or 
from our competitors or either from a prior policy with one of 
our five Blue Cross and Blue Shield plans, but we're certainly 
happy to have the numbers up.
    Mr. Green. OK.
    Well, and we understand there were people who were using 
the Web sites and the national exchange to shop. And I had some 
companies who said, I'm a small business, I encourage--in fact, 
I have a number of them in my area. He said, we have actually 
helped our employees sign up individually, because, you know, 
you have 10 employees, they weren't required, but they actually 
used it. And I know that's an analogy, but I have heard that 
from a lot of my employers.
    Now, I know my Republican colleagues, with the missed data 
from these polls, that anything that comes through the 
administration for the overall signup--in March, Speaker 
Boehner said that there were less people today with health 
insurance than there were before this law went into effect.
    I think, not even basing it on a poll, would you all agree 
that there are more people that have health insurance now, 
let's say since May 1st, than we had before the ACA?
    Mr. Pratt. I can't speak to numbers on that enrollment.
    Mr. Green. OK.
    I don't know how my colleagues continue to make unfounded 
claims in the face of the clear evidence that the Affordable 
Care Act is providing millions of Americans with healthcare 
coverage. It makes me wonder what would possibly convince them 
that millions of Americans have gained coverage under the law. 
I suspect that, ultimately, once the information becomes so 
indisputable, that it maybe will change the subject and, 
rather, concede that clearly more people have health insurance 
as a result of the ACA.
    And having served many years in Congress and even before 
that in the State legislature in Texas, no law Congress ever 
passes is perfect. That's not how our forefathers created the 
system. So we do need to go back, like our ranking member said, 
and see what we can do to fix the ACA. And I appreciate you 
all's efforts to help us do that once we get to that point.
    And I will yield back my time.
    Mr. Murphy. The gentleman yields back.
    I now recognize Mr. Griffith of Virginia for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    Thank you all for being here.
    Ms. Blackburn asked you earlier for a show of hands, and I 
am going to do the same. If your company anticipates a 
reduction for the average family that you insure of $2,500 or 
more, would you raise your hand?
    If your company anticipates a reduction in premium of 
$2,000 per average family for your subscribers, raise your 
hand.
    Same for $1,500?
    All right. I appreciate that.
    When will your companies submit their rates to the 
administration for 2015? Do you all have a date that you're 
going to do that by? We'll start with----
    Mr. Rodgers. I believe the----
    Mr. Griffith. Yes?
    Mr. Rodgers. [continuing]. Rates are due toward the end of 
June. I believe it's June 27th. I think that some of the States 
are a little bit ahead of that.
    Mr. Griffith. All right. And do you know when those will 
become public?
    Mr. Matheis. Depending on the market, sir, that will vary, 
depending on the States.
    Mr. Griffith. All right.
    And when you submit those to the administration, will you 
commit today to submitting those rates to us, as well?
    Mr. Rodgers. I'm not involved in the rate submission 
process, but to the extent that's possible--I'll need to talk 
with our company representatives about that.
    Mr. Griffith. Well, I certainly can't see how it would be 
illegal to share information with the United States Congress, 
but----
    Mr. Rodgers. I didn't say ``illegal.''
    Mr. Griffith. But if possible, you will do it, Mr. Rodgers?
    Mr. Rodgers. I need to confirm with our actuaries who are 
involved in the rate-filing process, because I'm not.
    Mr. Matheis. We are happy to work with this committee as 
long as the rates remain proprietary until they do become 
public and all of our competitors see them.
    Mr. Griffith. All right. That's certainly fair.
    Any others?
    Mr. Wingle?
    Mr. Wingle. I'd have to take that under advisement about 
how we share rates.
    Mr. Griffith. Mr. Evanko?
    Mr. Evanko. I'd just say that the rates are very 
competitively sensitive, for obvious reasons. So we want to 
make sure that it's a level playing field at the time any rates 
are disclosed.
    Mr. Griffith. Have either you or anyone in your 
organizations--and, again, it's for all of you all--engaged in 
discussions with the administration already about the 2015 
rates?
    Mr. Rodgers. Not that I'm aware of.
    Mr. Wingle. Not to my knowledge.
    Mr. Griffith. Everyone is silent. Does that mean there have 
been none? Has anyone had any discussions with the 
administration about rates for 2015?
    Mr. Matheis. None that I'm aware of.
    Mr. Griffith. OK.
    Mr. Evanko. No.
    Mr. Rodgers. No.
    Mr. Griffith. All right. Appreciate that. Thank you very 
much.
    Mr. Pratt, the ACA includes a tax credit for small 
businesses to purchase health insurance coverage for employees. 
The law also levies a tax on health insurance purchased by 
small businesses.
    On the one hand, we give employers a tax credit to make 
health insurance more affordable, and then we turn around with 
the other hand and we tax those policies. Does that not seem as 
an inherent conflict in policy to you?
    Mr. Pratt. Congressman, we have expressed significant 
concerns with the new tax on small businesses and individuals 
that total some $100 billion that will largely be passed on to 
them in the form of higher premiums.
    Mr. Griffith. And what we are trying to do, of course, is 
to see if we can't keep premiums down. And the ACA, Obamacare, 
has failed to meet its promise of a $2,500 reduction for the 
average family. That's pretty straightforward, isn't it?
    Mr. Pratt. Congressman, we do believe that the health 
insurance tax runs counter to the goal of providing more 
affordable coverage.
    Mr. Griffith. And as a part of this, we are actually taxing 
government itself. We've got Federal programs, including 
Medicare Advantage, Medicaid Managed Care. The Federal 
Government is, in fact, taxing itself with the tax that you 
spoke of earlier through its subsidization of Medicare and, in 
part, Medicaid. And then State governments are also having to 
pay the tax.
    Do you have any idea how much that tax is on the American 
people? You said $100 billion in increase, but how much for the 
Federal and State governments?
    Mr. Pratt. Congressman, I don't have that information 
handy. But we did commission a study by Oliver Wyman that does 
break out that information in more detail, including on a 
State-by-State basis, and we'd be happy to make that available.
    Mr. Griffith. All right. I appreciate that, if you would.
    Also, in your testimony, you write that insurers have many 
duplicate enrollments because of the problems with 
HealthCare.gov. And I can tell you that we had that in both--I 
have heard it from constituents and in our family. Apparently, 
we didn't push the right button the first time around. I say 
``we''; my wife did it all. Don't want to take on any 
assumptions that it was us doing it; it was my wife working 
over the computer for hours and hours. But actually submitted 
several different applications, ended up with one.
    How widespread is that problem for citizens out there? And 
is that part of the confusion between whether or not people 
have paid their premiums or not?
    Mr. Pratt. Congressman, the challenge you referred to, I 
think, was presented as a result of the problems with the Web 
site and the technology. And, anecdotally, we have heard from 
our members about a number of duplicate enrollments. Don't have 
an order of magnitude on that other than to know that it has 
been a problem and an issue.
    Mr. Griffith. All right. I appreciate that.
    And, Mr. Chairman, I yield back.
    Mr. Murphy. The gentleman yields back.
    I now recognize Ms. Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    This morning, the Democratic committee staff released a 
memorandum on the amazing number of distortions and false 
claims that Republicans have made about the Affordable Care 
Act. It's a deplorable record. Virtually every major prediction 
or claim made by the Republicans about the ACA since 2009 
turned out to be wrong.
    Today, we have the benefit of hearing from some of the 
companies that are actually working on the Affordable Care Act 
in the real world. These companies were not the biggest 
supporters of the law, they still oppose many provisions, but 
they do not live in the Republican echo chamber, they live in 
the real world. And I hope they can provide some clarity on a 
few questions.
    The first question I have for all of you is whether the ACA 
is a government takeover of health care.
    Republicans have made that claim I don't know how many 
times. By one count, the phrase appeared on Speaker Boehner's 
Web site 90 different places. It's mentioned on the RNC, 
Republican National Committee, Web site 200 times. Days before 
the Affordable Care Act's passage in 2010, then-House-Minority-
Leader John Boehner's office wrote that, quote, ``Democrats 
have opted for a government takeover of health care.''
    So, Mr. Wingle, the ACA is now in effect. Has the 
government nationalized Aetna, or is it still a for-profit 
corporation?
    Mr. Wingle. We are a publically traded, for-profit 
corporation.
    Ms. Schakowsky. And, Mr. Evanko, what about you? Has Cigna 
been taken over by the Federal Government?
    Mr. Evanko. No. We're a for-profit organization.
    Ms. Schakowsky. Mr. Rodgers, Mr. Matheis, have your 
companies been nationalized, or are they still nonprofits?
    Mr. Rodgers. We are a not-for-profit, mutual legal reserve 
company.
    Mr. Matheis. And we are actually a for-profit organization.
    Ms. Schakowsky. Oh, you're a for-profit. Sorry.
    Mr. Pratt, you work for the trade group that represents the 
private insurance industry. Is there still a private insurance 
industry, or has the industry been destroyed or taken over by 
the government, as Republicans predicted?
    Mr. Pratt. There is still a private industry, and we 
represent many of those companies.
    Ms. Schakowsky. Thank you.
    Republicans also questioned whether private health 
insurance would even exist in 2014. In 2010, Senator Coburn 
said, quote, ``There will be no insurance industry left in 3 
years,'' and that, quote, ``Private health insurance will be 
dead in 3 years,'' unquote. I should note that nearly 4 years 
have passed since that statement was made.
    Mr. Pratt, is the private health industry dead?
    Mr. Pratt. Representative, no.
    Ms. Schakowsky. Does anybody else on the panel believe the 
private industry has disappeared, private insurance industry?
    Thank you.
    Republicans have also claimed that Americans will no longer 
be able to see their doctors because of the ACA.
    Mr. Wingle, does your company healthcare plan--do the plans 
cover physician care?
    Mr. Wingle. They do.
    Ms. Schakowsky. And, Mr. Evanko, what about you? Does Cigna 
have doctors in its healthcare plans?
    Mr. Evanko. Yes, we do.
    Ms. Schakowsky. Mr. Rodgers, what about HCSC? Do you 
include doctors in your networks?
    Mr. Rodgers. Certainly.
    Ms. Schakowsky. And, Mr. Matheis, what about WellPoint?
    Mr. Matheis. Yes, we cover physician services.
    Ms. Schakowsky. Thank you. Thank you very much.
    Republicans have claimed that nobody would sign up for 
coverage. They've claimed that huge numbers have not paid for 
coverage. Eight million people have signed up for coverage on 
the exchanges. Millions more have coverage outside the 
exchanges. And each of the insurance companies here today have 
testified that people have signed up in droves and upwards of 
80 or 90 percent have paid their premiums.
    Mr. Chairman, I don't know if there will ever come a day 
when Republicans will admit their criticisms of the ACA have 
been unfounded. I think we may have reached a turning point 
last week when you released your misleading report on the 
Affordable Care Act enrollment. I think the American public 
finally realize that Republicans have absolutely no credibility 
on this issue. You cannot be this wrong this many times and 
still expect to be taken seriously.
    One commentator, Ezra Klein, even gave the Republican 
behavior a name: Obamacare Derangement Syndrome. He defined it 
as, and I quote, ``the acute inability to see Obamacare as 
anything but a catastrophic failure that the American people 
will soon reject. For those suffering from ODS, all bad 
Obamacare news is good news and all good Obamacare news is 
spin. In this world, delays of minor provisions in the law 
prove that the entire structure is collapsing, while surges of 
millions of people enrolling in insurance don't prove anything 
at all.''
    Mr. Chairman, perhaps we can ask our panel of insurers if 
their policies cover Obamacare Derangement Syndrome. But, 
really, that's rhetorical.
    And I yield back. Thank you.
    Mr. Murphy. But it would be important to know if that's a 
preexisting condition, and I think it's not coverable----
    Ms. DeGette. It would be covered now. Good news, Mr. 
Chairman.
    Mr. Murphy. It depends what the death panel says, I think.
    Mr. Olson is now recognized for 5 minutes.
    Mr. Olson. I thank the chair.
    And welcome to our witnesses.
    I wish you weren't here, but you are here. You're here 
because the administration will not give us the information we 
need to educate our constituents about Obamacare and the 
rollout of HealthCare.gov.
    I want to talk about, all of you, a question about the back 
end and the money you're supposed to be getting from the 
exchange and the information. In your experiences, is it 
working?
    Mr. Pratt, is the back end working? Are you getting what 
you need from HealthCare.gov?
    Mr. Pratt. Representative, throughout the open enrollment 
period, we worked very closely to develop workarounds, manual 
processes, and other things that were necessary to make the 
system work better. It's my understanding that, while the back-
end problems have improved, some remain.
    Mr. Olson. Workarounds. You guys stepped up to the plate to 
work around the disaster of the healthcare exchange rollout? Is 
that what you're trying to say?
    I mean, you guys took it upon yourself instead of depending 
on what--they've got information. You depend upon them. And is 
sort of trickling down and just coming out slowly, slowly, 
slowly not what you need? Is that you're saying? You guys 
stepped around to make that happen?
    Mr. Pratt. Representative, I think what I would say is that 
we kept the interests of our members squarely in mind, in terms 
of minimizing disruption for them. And our members did what was 
necessary to make sure that it was as smooth as it possibly 
could be.
    Mr. Olson. Mr. Coyne?
    Mr. Coyne. I would agree with Mr. Pratt. There are still 
back-end issues to be worked through but that we are working 
with CMS on those. CMS has called a meeting of health insurers 
in the Federal marketplace on May 20th to consider some of 
those back-end issues and try and find solutions to them.
    Mr. Olson. And I hope you keep us advised of what that 
meeting puts forth, give us that information. Because we are 
not getting it from the Obama administration.
    Mr. Wingle?
    Mr. Wingle. We've worked closely to share our concerns 
about technical needs and help work with the industry, through 
our trade association, with colleagues to recommend 
prioritization on fixes for back-end issues, whether they're 
data cleanup issues or other issues related to the back end of 
the exchange.
    Mr. Olson. Mr. Evanko?
    Mr. Evanko. There are certainly more manual processes than 
we anticipated prior to the exchanges launching. I'd say there 
have been improvements in some areas. The one back-end issue 
that we are most focused on is the APTC payments coming from 
CMS to us as a carrier. That's a manual process today. We have 
been getting the payments we've been requesting, though, as it 
relates to APTC.
    Mr. Olson. Manual process. Twenty-first century, manual 
process.
    Mr. Rodgers?
    Mr. Rodgers. We're continuing to work with the enrollment 
process to make sure that any of the members that have selected 
one of our five Blue Cross and Blue Shield plans get the 
information they need from us and ultimately the care they 
need.
    Mr. Olson. Mr. Matheis?
    Mr. Matheis. Yes. We've seen significant improvement, but 
we still have a number of opportunities for improvement as we 
move through the remainder of this year.
    Mr. Olson. And one final question for all the panelists. Is 
the Web site fixed?
    Mr. Pratt?
    If it's not fixed, when it will be fixed?
    Mr. Pratt. Representative, I don't work in the operations 
area. I think if the back-end issues are considered part of the 
Web site, I would say----
    Mr. Olson. They are.
    Mr. Pratt. [continuing]. Yes, that there are still issues 
outstanding that we're working on.
    Mr. Olson. Not fixed.
    Mr. Coyne?
    Mr. Coyne. There are still issues on the back end.
    Mr. Olson. Another one not fixed.
    Mr. Wingle?
    Mr. Wingle. There's still work to be done.
    Mr. Olson. Not fixed.
    Mr. Evanko?
    Mr. Evanko. I can't comment on the end-to-end process. I 
can only comment on the component when CMS sends us enrollment 
transactions, and there is still work to do before that's 100 
percent.
    Mr. Olson. Not fixed.
    Mr. Rodgers?
    Mr. Rodgers. Yes. We are still working with the files that 
we get, and I think there could be some improvement.
    Mr. Olson. Still not fixed.
    Mr. Matheis?
    Mr. Matheis. Yes. I echo my colleagues' statements. We 
still have opportunities for improvement.
    Mr. Olson. Six for six. All not fixed.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Murphy. The gentleman yields back.
    I now recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    So much of the debate we have with our Republican 
colleagues about the Affordable Care Act comes down to one 
simple question: Is it a good thing for Americans to have 
access to quality health insurance?
    You would think this is a simple question. Every Republican 
member of the committee has health insurance. I bet that every 
pundit who makes a living attacking the ACA has health 
insurance. They all make certain their children have health 
insurance. I bet they wouldn't dream of going without it for an 
extended period of time.
    Two big reasons these people make sure they have coverage 
is that it can help them stay healthy and it can prevent 
catastrophic medical bills that can lead to financial ruin. 
But, this week, we got clear evidence from Massachusetts that 
health insurance actually saves lives. Researchers at the 
Harvard School of Public Health looked at mortality rates in 
Massachusetts and in surrounding States.
    My question, Mr. Pratt, is that, in 2006, Massachusetts 
passed major health reform legislation; is that not correct?
    Mr. Pratt. Yes, that's correct.
    Mr. Tonko. And did that coverage expansion bear some 
significant similarities to the Affordable Care Act, including 
an individual mandate, expanded Medicaid coverage, and 
insurance exchanges?
    Mr. Pratt. Generally, I would say that's fair to say.
    Mr. Tonko. Thank you.
    The Harvard researchers found that, following healthcare 
reform in Massachusetts, mortality rates dropped significantly 
compared to surrounding States. The death rate from treatable 
illnesses like cancer and heart disease declined even faster.
    These findings are truly remarkable. Nearly a 5 percent 
drop in mortality from preventable illnesses. They found that 
for every 830 individuals who gained coverage, 1 life was 
saved. Extrapolating that onto the national scene, if the trend 
holds, it means that ACA will save tens of thousands of lives.
    I'm not going to ask the witnesses to comment on the 
specifics of that study, but these witnesses know the value 
that health insurance provides.
    Mr. Matheis, do you have any doubt that your health 
insurance plans cover lifesaving treatments?
    Mr. Matheis. No, they do, sir.
    Mr. Tonko. Mr. Evanko, what about you? Do you help members 
access lifesaving treatments?
    Mr. Evanko. Absolutely.
    Mr. Tonko. Thank you.
    And, Mr. Rodgers, Mr. Wingle, what about your plans?
    Mr. Wingle. As a healthcare company, we are proud of 
providing consumers with high-quality plans competitively 
priced. We are very proud of that.
    Mr. Rodgers. Yes, sir, I agree.
    Mr. Tonko. Thank you for your affirmative answers. Thank 
you.
    I think Republicans are really outside of the mainstream 
when they try to argue that Americans aren't better off if they 
have health insurance coverage. Their tireless efforts to 
discourage people from getting covered are truly shameful.
    Even more shameful is the refusal of Republican Governors 
and some legislatures to expand the Medicaid program. Doing 
that would provide millions of Americans with healthcare 
coverage, and the Harvard study indicates that doing so would 
save thousands of lives.
    So we thank you for your affirmative answers.
    I yield back.
    Mr. Murphy. The gentleman yields back.
    I now recognize Mr. Gardner for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman.
    And thank you to the witnesses for being here today and 
your time.
    Last year, the President apologized for his broken promise, 
if you like your plan, you can keep your plan, after millions 
of Americans received plan cancellations.
    I'd like each insurer to reply in turn, how many plans did 
you cancel or discontinue last year because of Obamacare?
    Mr. Coyne?
    Mr. Coyne. We don't have that information at the 
association. Individual health plans have that information.
    Mr. Gardner. Mr. Wingle?
    Mr. Wingle. We can provide that information to the 
committee.
    Mr. Gardner. Could you submit that for the record, and by 
State, with the total for all of you?
    Mr. Evanko?
    Mr. Evanko. Sure. Yes.
    Mr. Gardner. Do you have the number off the top of your 
head right now?
    Mr. Evanko. I can give you approximations and----
    Mr. Gardner. Sure. That would be great.
    Mr. Evanko. We had approximately 2,000 customers, 
individual customers, in South Carolina and Connecticut.
    Mr. Gardner. Mr. Wingle?
    Mr. Wingle. Again, we'd want to get you the firm data.
    Mr. Gardner. OK.
    Mr. Rodgers?
    Mr. Rodgers. I don't have that data with me. I think we've 
provided it to other congressional committees, so we'd 
certainly be happy to----
    Mr. Gardner. But that's not a number that you keep on the 
top of your head?
    Mr. Rodgers. Not at all.
    Mr. Gardner. OK.
    Mr. Matheis?
    Mr. Matheis. I don't have the number of products off the 
top of my head, but we'd be happy to find that out.
    Mr. Gardner. If you could submit for the record by State 
and what the total, I would appreciate it.
    And then, to AHIP, does your organization know how many 
plan cancellations there were nationwide last year, or for your 
members?
    Mr. Pratt. Congressman, we would not have that information.
    Mr. Gardner. You don't ask that of your members, or they 
don't provide that to you?
    Mr. Pratt. To my knowledge, we do not, no.
    Mr. Gardner. OK.
    Mr. Coyne, does your organization know how many member 
plans were canceled? You don't?
    Mr. Coyne. We haven't asked for that information either.
    Mr. Gardner. In order to avoid these cancellations, some 
insurers offered early renewal plans so they could continue 
into 2014. If each of the insurers could reply in turn, how 
many plans did you offer early renewals to last year that would 
have been otherwise cancelled?
    Mr. Matheis?
    Mr. Matheis. We offered early renewals to all of our 
customers in all 14 States that was allowable. So California 
did not allow us to offer early renewal, but in the majority of 
every other market we offered it to every customer.
    Mr. Gardner. Mr. Rodgers?
    Mr. Rodgers. We offered early renewals in four of our five 
States. The Montana plan became part of our larger----
    Mr. Gardner. And how were those offers? How many offers 
were there?
    Mr. Rodgers. I don't have the number with me, but they're 
significant numbers, yes. And----
    Mr. Gardner. Could all of you provide those for the record 
and by State, breaking it down, please?
    Mr. Evanko?
    Mr. Evanko. Yes. We offered early renewal to about 235,000 
customers in all States except for Connecticut and South 
Carolina, as I t estified earlier.
    Mr. Gardner. OK.
    And Mr. Wingle?
    Mr. Wingle. We offered early renewals as consistent with 
State laws and regulations.
    Mr. Gardner. OK.
    Last year, President Obama apologized for these canceled 
plans and offered a 1-year delay of enforcing the Obamacare 
requirements that led to the cancellations. This delay has 
since been extended.
    I'd like each insurer to answer: How many plans do you 
currently offer that do not meet the law's requirements but you 
are able to continue offering because of this delay?
    Mr. Matheis?
    Mr. Matheis. I would have to get you that number, sir. I 
don't know it off the top of my head.
    Mr. Gardner. Mr. Rodgers?
    Mr. Rodgers. Yes, I don't know the number.
    Mr. Gardner. Mr. Evanko?
    Mr. Evanko. I don't know the exact figure either.
    Mr. Gardner. Mr. Wingle?
    Mr. Wingle. I don't have the hard numbers on the pre-ACA 
plans.
    Mr. Gardner. To AHIP, do you know how many plans your 
member organizations currently offer under this delay?
    Mr. Pratt. Could you please repeat that question, 
Congressman?
    Mr. Gardner. The question is the 1-year delay of enforcing 
Obamacare requirements that led to the cancellation, this delay 
has been extended. How many plans do you currently offer that 
do not meet the law's requirements but you're able to continue 
offering because of this delay?
    Mr. Pratt. I don't have that information.
    Mr. Gardner. You don't have that number.
    Mr. Coyne?
    Mr. Coyne. The only information we have has been informally 
reported to us, and it contains all non-ACA-compliant plans 
across the Blue system. And that number is 3.2 million.
    Mr. Gardner. Yes.
    Mr. Matheis, what happens with those plans when the time 
runs out, when the delay expires?
    Mr. Matheis. So, depending on how the State handles it, 
with the extension, in theory a customer could sign up for 2 
more years----
    Mr. Gardner. What happens after that time expires?
    Mr. Matheis. Then they would be----
    Mr. Gardner. Canceled?
    Mr. Matheis. [continuing]. Moved to an ACA product.
    Mr. Gardner. So that plan would be canceled?
    Mr. Matheis. Yes, sir.
    Mr. Gardner. Mr. Rodgers, would that plan be canceled at 
the end of the time period?
    Mr. Rodgers. Mr. Matheis' characterization was correct, I 
believe.
    Mr. Gardner. So, yes, that's a cancellation after the time 
expires.
    Mr. Evanko, would those plans be canceled after the time 
expired?
    Mr. Evanko. Based on the current guidance, yes.
    Mr. Gardner. Mr. Wingle, would those plans be canceled 
after the time expires?
    Mr. Wingle. Where feasible, we would offer the member an 
ACA-compliant alternative.
    Mr. Gardner. Could you submit the total numbers for all of 
those plans that would be canceled when the time expires and 
break it down by State, please?
    Thank you.
    And one of the excuses that we've heard from the supporters 
of the healthcare bill is that the law didn't do this, didn't 
cause the cancellations, that you were the ones who planned the 
cancellations and planned all of the cancellations.
    Were the massive cancellation notices sent last year, the 
ones the President apologized for, were these because of 
Obamacare or because of you?
    Mr. Matheis?
    Mr. Matheis. The law required us to send out those 
cancellations.
    Mr. Gardner. So Obamacare required the cancellations.
    Mr. Matheis. Yes.
    Mr. Gardner. Mr. Rodgers?
    Mr. Rodgers. The law required us to, in certain 
situations----
    Mr. Gardner. So Obamacare caused and required the 
cancellations.
    Mr. Evanko?
    Mr. Evanko. We had such a small fraction of our book of 
business that was not offered early renewals. But that was----
    Mr. Gardner. But Obamacare required the 2,000 cancellations 
that you said?
    Mr. Evanko. In the two States where we did not offer early 
renewals.
    Mr. Gardner. Mr. Wingle, did Obamacare cause the 
cancellations?
    Mr. Wingle. Plans that weren't compliant with the benefit 
requirements of the law were canceled.
    Mr. Gardner. So that's a yes?
    Mr. Wingle. That is a yes.
    Mr. Gardner. In attempting to pass this law, the President 
said repeatedly, if you like your plan, you can keep it. Did 
that turn out to be true for all of your customers?
    Mr. Matheis?
    Mr. Matheis. No, that was not true for 100 percent of our 
customers.
    Mr. Gardner. Mr. Rodgers?
    Ms. DeGette. Time's over.
    Mr. Rodgers. Not for 100 percent.
    Mr. Gardner. Mr. Evanko?
    Mr. Evanko. For over 99 percent of our customers, that was 
the case.
    Mr. Gardner. Mr. Wingle?
    Mr. Wingle. Not in all cases, no.
    Mr. Gardner. OK. Appreciate your time.
    And I yield back.
    Mr. Murphy. Thank you.
    I now recognize Ms. Castor for 5 minutes.
    Ms. Castor. Well, thank you very much. And good morning.
    And thank you, Mr. Chairman, for calling this hearing to 
discuss the strong enrollment numbers of the Affordable Care 
Act.
    When the enrollment numbers were released last week, coming 
from the State of Florida, we were floored. About 1 million 
Floridians signed up under the Affordable Care Act. This far 
exceeded our expectations. We thought 600,000, 700,000, but to 
get to about a million signed up that doesn't include the about 
300,000 children that signed up under children's health 
insurance or our disabled neighbors or children under Medicaid.
    And then I learned from our Florida Blue executives 
Friday--Florida Blue is the market leader in Florida--that that 
million-dollar figure does not include others that signed up 
with private health insurance companies, so let's add on 
another probably couple hundred thousand. It's really 
remarkable, and it has far exceeded our expectations.
    I just think about all of my neighbors all across the State 
that are breathing easier because now they have financial 
security in their lives that they did not have before.
    And I want to thank all of our navigators, the insurance 
brokers, many of the insurance companies that were out 
providing information, all of our community outreach partners. 
You have made a fundamental difference in the lives of millions 
of Floridians, and it's going to be very meaningful for them 
and their families.
    It's also good news for neighbors that have insurance 
already. Most people across America already have insurance, and 
if you have insurance, what you want most of all is that you 
want other people to have insurance. Because the cost of these 
high premium increases and rate increases over time were 
largely caused by this huge uninsured population. And those 
costs, when they show up at the hospital for health care, they 
have to be paid somewhere. So that's what we're hoping then.
    And we've heard time and time again the scare tactics here, 
and we'll see what happens with premium increases, but do we 
want to go back to the double-digit consistent premium 
increases of the past? I don't think so. So this is a way that, 
hopefully, over time we will be able to stabilize the 
marketplace.
    And I think my colleague, Congressman Tonko, was right. I 
think my Republican friends now are in danger of sounding like 
they are opposed to people taking personal responsibility and 
having health insurance. People need to have health insurance 
to maintain their quality of life, to make sure they don't go 
bankrupt. And I would hope that my Republican friends could now 
turn the page and we could get to work on many of the 
complicated issues with health policy in America.
    Now, one of my Republican colleagues' favorite attacks on 
healthcare reform is that it will cause people to lose their 
doctors. Now, you have to say, OK, even in Florida, where you 
have over a million people that now have health insurance, 
they're going to be able to see a doctor, 8 million nationwide. 
But this is especially bizarre coming from Republicans, because 
they have long opposed any policy proposals to broaden 
networks. They have fought efforts to increase reimbursement 
for primary care providers who serve Medicare and Medicaid 
patients.
    What has been lost in this debate is the fact that the ACA 
sets important new network adequacy standards that guarantee 
access to key essential community providers. It ensures that no 
consumer will ever see a huge out-of-network bill if they're 
taken to an emergency room. And it gives consumers strong 
appeal rights. It's a huge step forward in patient access.
    Mr. Pratt, can you give us some context here? Providers and 
insurance regularly negotiate rates and determine who will be 
inside of a network; isn't that correct?
    Mr. Pratt. Representative, yes, that's correct.
    Ms. Castor. And if insurers had to include every provider 
in their network, wouldn't that eliminate their bargaining 
power and substantially increase premiums?
    Mr. Pratt. Congresswoman, I think that is generally 
correct. I wouldn't characterize the amount of the increase, 
but it is a very important aspect of keeping premiums 
affordable.
    Ms. Castor. OK.
    Can these high-value networks improve care coordination and 
move us towards a system where we pay for quality rather than 
quantity in our healthcare system?
    Mr. Pratt. Absolutely. Our members are working very hard 
toward that end.
    Ms. Castor. See, I think this network adequacy in the 
marketplace is an important issue. We need to make sure that 
consumers have access to providers in their area and that they 
have enough choices to get the care they need when they need 
it.
    Republicans should not attack the ACA for letting the 
private market work. And, remember, personal responsibility is 
fundamental; it's a fundamental tenet of the Affordable Care 
Act. And it's oftentimes the customer's responsibility to 
review all of the choices they have, whether it's bronze, 
silver, gold, platinum, and the networks contained therein, and 
make their own choice.
    So the law sets key new standards and provides important 
protections, but insurers and providers will continue to 
negotiate to ensure sufficient access at fair prices.
    Thank you very much. I yield back.
    Mr. Burgess [presiding]. The gentlelady yields back.
    The chair recognizes the gentleman from Ohio, Mr. Johnson, 
5 minutes for your questions, please.
    Mr. Johnson. Thank you, Mr. Chairman.
    Wow. So much to talk about, so little time to talk about it 
all.
    Gentlemen, thank you for joining us today.
    You know, one of the reasons this committee has requested 
this information from you is because the administration has 
refused repeatedly to provide any data on who is actually 
paying for the Affordable Care Act. In fact, one White House 
spokesman told reporters to ask your industry for this 
information.
    So here's the question for you: Do you currently provide 
any information to the administration on who has paid for their 
plan? If yes, what information do you provide and how is it 
provided and how often? Do you provide any information to the 
administration?
    Mr. Wingle. The only information we provide around payment 
is related to the invoicing we do with the government to get 
the premium tax credit.
    Mr. Johnson. And how is it provided and how often?
    Mr. Wingle. It's the process we described earlier. It's a 
workaround process because the financial management module is 
not fully constructed on the FFM, and it's done monthly.
    Mr. Johnson. And who did you send it to, Mr. Wingle?
    Mr. Wingle. Send it to CMS.
    Mr. Johnson. OK.
    Well, it's a little confusing. So the administration will 
pay your industry a subsidy for potential customers who never 
even effectuate their enrollment. So if you're not providing 
the details to the administration on who's paying for the 
Affordable Care Act, how are they paying you? What are they 
basing their payments to you on?
    Mr. Wingle. I'd only make one clarification. We do not 
submit information for payment from the government for members 
who are not effectuated, who haven't made their own portion of 
the binder payment. We do not do that.
    Mr. Johnson. Well, let me dig a little deeper then. So how 
do you get paid? How do you get paid, and what is that based 
on? What information do you provide the government, the 
administration, that gets you paid?
    Mr. Wingle. The process essentially works because we have 
the enrollment file information. We understand the premium for 
the plan selected by the consumer on that enrollment file.
    Mr. Johnson. So you're paid based on enrollment, not on 
actual payment?
    Mr. Wingle. We understand the member's responsibility on 
that enrollment, and the difference between the premium rate 
and the member responsibility tells us what the government is. 
And we roll that figure up monthly.
    Mr. Johnson. So if you only submit for effectuated--I can't 
even pronounce that word--doesn't the administration know the 
pay rate? Don't they know how much these people are paying?
    Mr. Matheis. Yes, sir, they've determined the subsidy 
eligibility as part of the enrollment process.
    And so a file would come to us; we'd bill for the member 
responsibility. Upon collection of that member responsibility, 
then we would typically, if the system were working as 
designed, we would send a file to the government, to the 
exchange, saying, here are the members that have effectuated 
enrollment and here's ultimately the payment that is back due 
to us.
    Mr. Johnson. OK.
    So do you believe the administration is currently able to 
report the payment rate or who is fully enrolled? Do you think 
they have that information, based on what you give them?
    Mr. Matheis. So, to date, the payments that are coming back 
and forth are estimated. So there's not been a direct 
reconciliation between our company and the exchange on a 
member-by-member basis. That's one of the works in progress 
that we discussed on the back-end discussion we had earlier in 
the day, sir.
    Mr. Johnson. Considering, then, that the administration is 
able to report who selects a plan on HealthCare.gov, would it 
would be possible for them to gather information on who has 
actually paid for a plan?
    Let's start down with Mr. Pratt.
    Mr. Pratt. Representative, it's my understanding that that 
capability is not present yet. I'm not sure----
    Mr. Johnson. Mr. Coyne?
    Mr. Pratt. [continuing]. Whether it may be in the future.
    Mr. Johnson. OK.
    Mr. Coyne. Yes, it's my understanding, as well, that that 
capability isn't ready yet.
    Mr. Johnson. Mr. Wingle?
    Mr. Wingle. I don't know what the administration can infer 
from the data they have, but I know the financial management 
module itself is not available.
    Mr. Johnson. Mr. Evanko?
    Mr. Evanko. One bit of color I'll add to my colleagues is 
the submission for APTC is only for those that are APTC-
eligible. So there's also people that do not qualify for that 
that should be in that calculation.
    Mr. Johnson. OK.
    Mr. Rodgers?
    Mr. Rodgers. Yes, I think my colleagues are correct in 
their statements, and we're still working on the reconciliation 
process for payment.
    Mr. Johnson. OK.
    Mr. Matheis?
    Mr. Matheis. I would concur with the other statements.
    Mr. Johnson. OK.
    Final question: Does the administration know who's paid for 
their plan?
    Mr. Pratt?
    Mr. Pratt. Congressman, I don't know the answer to that 
question.
    Mr. Johnson. Mr. Coyne?
    Mr. Coyne. I don't know either.
    Mr. Wingle. I don't know what the administration knows 
about the enrollment in terms of who's paid.
    Mr. Evanko. I don't know either.
    Mr. Rodgers. No, sir.
    Mr. Matheis. No, sir.
    Mr. Johnson. It's interesting that they sent us to ask you 
folks.
    OK. Mr. Chairman, I yield back.
    Mr. Burgess. The gentleman yields back his time.
    The chair recognizes the gentleman from Kentucky, Mr. 
Yarmuth, 5 minutes for your questions, please.
    Mr. Yarmuth. Thank you very much, Mr. Chairman.
    And I'm really glad we had this hearing. That's something I 
usually don't say very often, but this has been a very 
illuminating hearing, because I think what it's done, very 
clearly, is to show what our colleagues on the other side's 
strategy is, which is to try and hold a hearing in which they 
can grab a headline that will in some way scare the American 
people about the Affordable Care Act rather than providing true 
information about what's going on.
    And it's clear from the desperation, once their initial 
strategy of trying to deal with this alleged failure to pay 
premiums, now they've moved on to try and scare people about 
what premiums might increase by later, either next year or in 
the future.
    So, and I'm glad you all stressed how important it was that 
you not give up your competitive position, because obviously 
you're all competing in the markets.
    And I could turn that strategy around and do the same thing 
and ask you speculative questions like, will the premium 
increases that we are likely to see approach the 38 percent 
that we were seeing in 2010 before the Affordable Care Act was 
passed, and ask you to speculate on that, but I won't do that. 
And I could ask you about what the rate of cancellations of 
policies were prior to the Affordable Care Act.
    And I could also ask you--and I think this would be a fair 
question; I wouldn't expect you to answer--how many of your 
insurance companies, because of the success of the Affordable 
Care Act enrollment so far and the beneficial mix of younger 
people, has prompted you to explore doing business in other 
States, as has been reported in the media. And I think that 
would be a question that I would love to have the answer to.
    I know, for instance, in Kentucky, the co-op, the nonprofit 
Kentucky co-op, which is competing in the exchange, is now 
getting ready to do business in West Virginia, because they 
don't have a co-op and they see an opportunity there. And I 
think the Maine co-op is planning to do business in--or, I'm 
sorry, the Massachusetts co-op in Maine, because they see an 
opportunity there.
    So I think all these things are indications that the 
Affordable Care Act, far from being the train wreck which many 
have suggested it would become, is actually getting a great 
deal of traction as it speeds down the tracks.
    And just to put it in perspective, in Kentucky, we have 
insured in the period of 6 months roughly half of the 
previously uninsured population of the State. We have--411,000 
people now have coverage in Kentucky under the ACA. Three-
quarters of those--in answer to one of the questions that was 
asked earlier, three-quarters of those we know previously had 
no insurance. And 52 percent of all that 411,000 people are 
under 35.
    So we know things are working in Kentucky. And, as Ms. 
Castor mentioned, things are surprisingly successful in 
Florida, despite an administration there which has done 
everything it could to sabotage the Affordable Care Act.
    So, we can speculate about and argue about the level of 
success, whether it's a success or a train wreck, but the 
markets certainly have had something to say about how they view 
the Affordable Care Act in terms of your businesses. I look at 
those share prices of the companies represented here and one 
based in my own State. Humana is based in my district. When the 
Affordable Care Act was enacted, their stock price was 44; now 
it's 110. Aetna's was 33; now it's 72. UnitedHealthcare was 27; 
now it's 75. And Cigna's was 34, and now it's 83, roughly.
    So the market has made a judgment, I think, about the fact 
that, at least in terms of your business, the Affordable Care 
Act has offered a significant financial benefit.
    So I think, again, one of the things that's fascinating 
about this hearing is we know what the Republicans have tried 
to do, and that's to scare the American people and to use every 
little indication of a problem to reflect some kind of a 
doomsday scenario that we are looking at.
    And, fortunately, the facts on the ground, whether it's the 
marketplace, whether it's the experience in Kentucky or Florida 
or California, where literally millions of people, by one 
estimate, 20.8 million people, got coverage under the ACA or 
bought coverage because of the ACA in the private markets 
outside the exchanges, we are doing--it's doing exactly what we 
intended it to do.
    We know there have been glitches, we know there have been 
problems. Any undertaking of this magnitude would experience 
those. But, again, I thank you for your participation, and I 
thank you for this hearing.
    And I yield back.
    Mr. Burgess. The gentleman yields back.
    The gentleman from New Mexico is recognized for 5 minutes, 
Mr. Lujan, for your questions, please.
    Mr. Lujan. Thank you, Mr. Chairman.
    Mr. Matheis, your company's CEO said last week that the 
surge in enrollment in March included a higher percentage of 
young people than in earlier months. Isn't that correct?
    Mr. Matheis. That is correct, sir.
    Mr. Lujan. And, Mr. Evanko, your CEO said something similar 
last week, as well. Isn't that correct?
    Mr. Evanko. That's correct.
    Mr. Lujan. And, as a general matter, all else being equal, 
a higher percentage of young people in the risk pool will help 
lower premiums. Isn't that correct?
    Mr. Evanko?
    Mr. Evanko. That's a complicated question. It's an 
important one, but it's a complicated question.
    Mr. Lujan. I think that all that we've heard and from all 
the actuaries is that the answer is, yes, we need more young 
people in. It lowers premiums.
    Mr. Pratt, insurance company premiums are market-sensitive 
information that companies are not eager to let their 
competitors know until the last minute. Isn't that correct?
    Mr. Pratt. Representative, it is competitively sensitive 
information. I don't know that I could speak to their 
particular perspective on that question.
    Mr. Lujan. Well, it seems like they'd want to keep it to 
themselves as long as they're able to so that competitors 
aren't able to get their hands on it and adjust accordingly. Is 
that correct? Is that fair?
    Mr. Pratt. It's fair to say it's competitively sensitive 
information.
    Mr. Lujan. And is it correct that many insurance 
commissioners around the country have the authority to review 
rates and that the final rates consumers pay are sometimes 
lower than the rates that are actually filed?
    Mr. Pratt. Yes, Representative. Typically speaking, rates 
are filed with the States, and the States review those rates.
    Mr. Lujan. Very good. I used to sit on a regulatory body 
that the superintendent of insurance was under our 
jurisdiction, so I appreciate the answer to that. Because I 
know what we saw when I was there, as well, sir, so I'd 
certainly agree that.
    Is it also true that the ACA contains a series of 
policies--reinsurance, risk adjustment, and risk corridors--to 
help mitigate potential premium increases?
    Mr. Pratt. Congressman, one goal of the 3Rs program, the 
so-called 3Rs program, is to stabilize premiums in the early 
years of implementation.
    Mr. Lujan. And a final question to the panel is: Before the 
ACA, wasn't it common for insurance premiums to increase 
significantly year to year, often by double digits?
    Anyone?
    Is there anyone that would disagree that premiums increased 
by more than 50 percent between 2003 and 2010?
    Hearing none, I guess the answer to that is that there's 
agreement.
    The 8 million figure only includes people who have signed 
up for insurance directly through the Federal and State 
marketplaces that my colleagues are trying to dismiss, but 
people can also sign up for private ACA-compliant plans outside 
of the marketplaces. We don't have a lot of conversation about 
that.
    Mr. Pratt, are individuals able to enroll in some of the 
plans that AHIP represents outside of the Federal and State 
marketplaces?
    Mr. Pratt. That's correct.
    Mr. Lujan. The CBO estimates that 5 million people will 
purchase ACA-compliant plans outside of the marketplace this 
year. These individuals will obtain the same protections and be 
a part of the same risk pools in each State as those who 
enrolled via the marketplaces.
    Mr. Rodgers, how many of HSCS's enrollments have been 
outside of the marketplace?
    Mr. Rodgers. As I said in my opening testimony and was 
provided in written form to the committee, I believe we had 
about 230,000 off-exchange applications during the open 
enrollment period ending April 15.
    Mr. Lujan. And about how many applicants have you received 
overall?
    Mr. Rodgers. We've received, overall, about 830,000 
applications across our five States.
    Mr. Lujan. So that sounds like it's representing about 1.2 
million culvert lives. So about 28 percent of your enrollees 
signed up outside of the marketplaces; that's a significant 
number. And I understand that payment data is not complete but 
in the earlier months of this year, what percentage of 
individuals enrolling in plans outside of the marketplace have 
paid?
    Mr. Rodgers. In my written comments to the committee, I 
shared with you the on-exchange and off-exchange payment rates 
because there is some difference. Typically, the payment 
completion rates are a little bit higher off exchange versus on 
exchange, and you should have that data.
    Mr. Lujan. So from what I was able to get from your 
testimony was that between January and April, 90 to 93 percent; 
and in May, 63 percent today, and we can verify that in there. 
Does that sound accurate, though?
    Mr. Rodgers. That's correct. That's in my written comments.
    Mr. Lujan. Can any of our other witnesses provide us with 
information on how many off-exchange enrollments they have had 
to date? If not--Mr. Evanko.
    Mr. Evanko. We have approximately 40,000 off-exchange ACA 
enrollments. That's about one-third of our total ACA compliant 
book.
    Mr. Lujan. And what I'd like to do is ask our witnesses if 
they'd be willing to provide the committee with detailed 
information on their off-exchange enrollments. Would that be OK 
with everyone?
    Mr. Rodgers. Yes.
    Mr. Lujan. Very good. I appreciate that.
    You know, later on today we're going to having some other 
hearings in other areas, despite the demonization and 
demagoguing of the Affordable Care Act, over 8 million 
enrollees, can you imagine what it would have been if Democrats 
and Republicans would have worked together to fix issues that 
needed fixing but we were able to get more people covered? Who 
knows where that number would have been.
    But later on today, we're going to be having a hearing on 
taking away someone's Fifth Amendment rights. We have my 
colleagues that are still refusing to release 39 interview 
transcripts at an IRS hearing. There are going to be other 
hearings. Another request on a hearing with Benghazi, even 
though there's been seven other hearings, 50 repeal attempts on 
the Affordable Care Act.
    I think there's a lot of important pressing business that 
we as the Congress need to get our hands around. And I am 
certainly hopeful that in the history and tradition of this 
committee, with all that I've learned from our senior members, 
there once upon a time was an effort for us to work together 
and get along, and I certainly hope that those days return. 
Every time I'm home, that's what we hear.
    So all the witnesses that are here today, thank you so 
much; chairman, again, for you being here, as well, and the 
hearing being brought together today, an important conversation 
I hope that we're able to bring more facts into the debate. 
Thank you very much.
    Mr. Burgess [presiding]. Gentleman's time is expired.
    The chair recognizes Ranking Member DeGette for follow-up.
    Ms. DeGette. Mr. Chairman, I just wanted to follow up on 
Mr. Lujan's questioning with the off-exchange enrollments, 
because as we've learned, there have been a number of off-
exchange enrollments in addition to the enrollments in the ACA, 
both in the Federal exchange and the State exchanges.
    So I would ask unanimous consent; the committee has made a 
request of 160 plans, including plans from this panel here, 
that they provide information about enrollment figures and 
premium payments for those plans that are under the Affordable 
Care Act exchanges. I would ask also if we would ask those same 
plans for that same information on the off-exchange 
enrollments.
    Similar to the data that we got from Blue Cross and Blue 
Shield, it would be helpful to know how many off-exchange 
enrollments we have had from these 160 plans and what the 
premium payments have been, so I'd ask unanimous consent that 
we also ask for that information.
    Mr. Burgess. Without objection. The gentlelady yields back.
    I recognize myself for follow-up. And I would just say on 
the off enrollment, I'm one of those members. I actually had 
both Blue Cross and Blue Shield and HealthCare.Gov on hold, or 
they had me on hold on December 23 and December 24, and it was 
kind of a race to see who would have a live person answer the 
phone first. And I think, if I recall correctly, Blue Cross 
went off that day, so I was probably an off-exchange 
enrollment, so you may count me as that.
    I would just like to ask each of you in follow-up, many of 
the products you're offering are only affordable because the 
government subsidizes part of the premium cost. Do you know 
what percentage of the plans with paid premiums and effectuated 
enrollment received some form of subsidy from the taxpayer? Mr. 
Coyne, I'll start with you and we'll just go down the line.
    Mr. Coyne. We don't have that information at this point.
    Mr. Burgess. Would you provide it for the record?
    Mr. Coyne. Yes, we'd be happy to when we get it.
    Mr. Burgess. Mr. Wingle.
    Mr. Wingle. Our experience probably comports with 
generally-available published information on that. It's a 
majority of our membership.
    Mr. Burgess. And again, can I ask you to submit that for 
the record?
    Mr. Evanko.
    Mr. Evanko. For our on-exchange customers, 80 to 85 percent 
are eligible to APTC.
    Mr. Burgess. Mr. Rodgers.
    Mr. Rodgers. Yes, I believe we submitted that information, 
if I understood your question, in the two submissions for 
April; and with the May 20 submission, we'll provide something 
similar.
    Mr. Wingle. As did we.
    Mr. Burgess. Mr. Matheis.
    Mr. Matheis. Yes. As you know, that number is a moving 
target, but it is around 79 percent for us.
    Mr. Burgess. And would you do your best to give us an 
accurate representation for the record.
    What about a situation where an individual enrolls but then 
cancels their plan? Are you only to pay the subsidy monthly or 
would you be responsible for returning a portion of the subsidy 
throughout the year? Mr. Coyne, let's start with you.
    Mr. Coyne. We don't have that information.
    Mr. Burgess. And will you submit that for the record?
    Mr. Coyne. Yes.
    Mr. Burgess. Will you try to find that for us?
    Mr. Wingle.
    Mr. Wingle. Could you repeat the question, please, Mr. 
Chairman.
    Mr. Burgess. A situation where an individual enrolls but 
then cancels their plan. Are you only paid the subsidy monthly, 
or would you be responsible for returning the portion 
throughout the year?
    Mr. Wingle. Returning the portion of premium paid or----
    Mr. Burgess. The advanced premium tax credit.
    Mr. Wingle. The subsidy. The subsidy, under the 3-month 
grace period rules, we retain until cancellation.
    Mr. Burgess. So you would not be required to return that?
    Mr. Wingle. No, not until a member has canceled.
    Mr. Burgess. If the member just simply doesn't pay, they 
make their first payment, maybe their second payment and then 
they stop. At the end of that 3-month grace period, do you have 
to return the money for those months where the patient didn't 
pay?
    Mr. Wingle. In compliance with the 3-month grace period 
rules, we retain any premium tax credit received during the 
period to help us cover any claims experience we had during the 
time the member was enrolled.
    Mr. Burgess. So you retain the advanced premium tax?
    Mr. Wingle. According with the design of the rules, yes.
    Mr. Burgess. Mr. Evanko.
    Mr. Evanko. Well, at the end of the 90-day grace period, if 
the individual has not paid any more premiums, then we owe that 
money back to CMS and we credit that in the next month's 
reconciliation process.
    Mr. Burgess. Interesting.
    Mr. Rodgers.
    Mr. Rodgers. I'm not familiar with that particular aspect 
of the grace-period payments in terms of the return or not, but 
I believe that we're only entitled to the money that's for the 
time the policy is in effect.
    Mr. Burgess. And Mr. Matheis.
    Mr. Matheis. That's my understanding, as well, sir.
    Mr. Burgess. Mr. Coyne, do you know how much your company 
has been paid in advance premium tax credits?
    Mr. Coyne. Blue Cross and Blue Shield Association does not 
actually sponsor any of the products that are on the exchanges; 
our member plans do. So we wouldn't be paid premiums or APTC.
    Mr. Burgess. Mr. Evanko.
    Mr. Evanko. We received four payments so far for the months 
of January through April, and it's in the range of $30- to $40 
million.
    Mr. Burgess. Mr. Wingle.
    Mr. Wingle. We obviously have that data, we can supply the 
committee with that data.
    Mr. Burgess. And I do need for you to submit that for the 
record.
    Mr. Rodgers.
    Mr. Rodgers. We've received some payments. I don't know the 
value of the payments to date.
    Mr. Burgess. And will you find that information and submit 
for the record, please.
    Mr. Rodgers. Certainly.
    Mr. Burgess. Mr. Matheis.
    Mr. Matheis. Yes. I don't have that number ready today, but 
we'd be happy to get it for you.
    Mr. Burgess. The metal plans, you're all familiar with 
them. I keep hearing about a copper plan that's going to be 
offered. Are you any of you familiar with that? Are you going 
to be offering copper plans, Mr. Coyne?
    Mr. Coyne. I'm not familiar with that at this point.
    Mr. Burgess. Mr. Wingle.
    Mr. Wingle. Under the current rules for central health 
benefits and the rules for qualified health plans, we're not 
currently authorized to offer anything at the so-called copper 
level. Our plan benefits start at bronze unless somebody 
qualifies for catastrophic care, and that's of the lowest 
actuarial value we're allowed to offer presently.
    Mr. Burgess. Mr. Evanko.
    Mr. Evanko. In the event that copper plans were introduced 
as something that's allowed, we would certainly consider it. 
Cigna believes in choice as one of our core principles for our 
customers.
    Mr. Burgess. Thank you.
    Mr. Rodgers.
    Mr. Rodgers. Currently we're not approved to offer the 
copper plans. That's certainly something that we believe, that 
members need more cost-effective programs. I expect that we 
would offer those.
    Mr. Burgess. Mr. Matheis.
    Mr. Matheis. My comments would be similar to my colleagues, 
sir.
    Mr. Burgess. Let me just ask each of you, what is your 
payment rate for products in the large-group market? Starting 
with you, Mr. Coyne, what are your payments for products of 
large-group market?
    Mr. Coyne. Individual group plans have that information 
rather than the association.
    Mr. Burgess. I see.
    Mr. Wingle.
    Mr. Wingle. I carry no responsibility for large group. I'd 
have to get back to you on that.
    Mr. Burgess. Mr. Evanko.
    Mr. Evanko. I am not familiar with the large-group payment 
rates either. I'm sorry.
    Mr. Burgess. Your company, though, is, I mean, you're in 
the large-group market.
    Mr. Evanko. We are, sir, yes.
    Mr. Burgess. Will you get that information for us?
    Mr. Evanko. Sure.
    Mr. Burgess. Thank you.
    Mr. Rodgers.
    Mr. Rodgers. I don't have that information with me.
    Mr. Burgess. But you will provide it for the committee?
    Mr. Rodgers. Certainly.
    Mr. Burgess. Mr. Matheis.
    Mr. Matheis. I'm not sure I understand the question. Could 
you clarify it for me, please.
    Mr. Burgess. Well, the question was, what are your payment 
rates for products in the large-group market?
    Mr. Matheis. So is that what our average premium is or?
    Mr. Burgess. How many people pay?
    Mr. Matheis. Sorry, sir, I'm still not following the 
question.
    Mr. Burgess. Well, what we've generally been talking about 
today is how many people, what percentage of people have paid. 
So following along that----
    Mr. Matheis. I'm sorry. I was a little slow in the uptake 
there. Typically, we would experience somewhere around a 98- to 
97-percent premium payment in the large-group market.
    Mr. Burgess. Very well. Thank you all for your attendance 
today. I ask unanimous consent that members' written opening 
statements be introduced into the record. Without objection, 
the documents will be entered into the record.
    In conclusion, I'd like to thank all the witnesses and the 
members who participated in today's hearing. I'd like to thank 
everyone who stuck with us in until the end, and that would be 
the witnesses. I remind members they have 10 business days to 
submit questions for the record, and I ask the witnesses to all 
agree to respond promptly to the questions. The committee now 
is stands in adjournment.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

              Prepared statement of Hon. Marsha Blackburn

    <bullet> Mr. Chairman, thank you for holding this hearing 
so that we might have some clarity about the Obamacare 
Enrollment numbers.
    <bullet> The rollout of HealthCare.gov was abysmal. In 
addition, the administration has unilaterally issued numerous 
delays. I believe that we are not finished with very unpleasant 
surprises with this law. The American people deserve answers to 
many questions and we intend to get those answers.
    <bullet> In March of this year, Secretary Sebelius told us 
that she could not tell us how many people who had enrolled in 
plans had actually paid their first month premiums. She was 
asked if she had asked for that information from insurers, she 
admitted that she had not.
    <bullet> The former director of the Center for Consumer 
Information and Insurance Oversight at CMS, Gary Cohen also 
said that he did not know.
    <bullet> I don't know, but I think when you have a name 
like ``oversight'' you should have an idea about what is going 
on.
    <bullet> Since the Administration was unable, or unwilling 
to provide the information to Congress, we requested this 
information from the insurers that the administration lists at 
participants in the Federally Facilitated Exchanges.
    <bullet> As we continue to work to I am looking forward to 
hearing from each of the witnesses today as we continue to 
shine a very bright light on Obamacare.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
